<html>
<title> - ENVIRONMENTAL REGULATIONS, THE ECONOMY, AND JOBS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
            ENVIRONMENTAL REGULATIONS, THE ECONOMY, AND JOBS

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON ENVIRONMENT AND ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 15, 2011

                               __________

                            Serial No. 112-6


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
65-773                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="80e7f0efc0e3f5f3f4e8e5ecf0aee3efedae">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

       FRED UPTON, Michigan          HENRY A. WAXMAN, California
              Chairman                 Ranking Member
JOE BARTON, Texas                    JOHN D. DINGELL, Michigan
  Chairman Emeritus                    Chairman Emeritus
CLIFF STEARNS, Florida               EDWARD J. MARKEY, Massachusetts
ED WHITFIELD, Kentucky               EDOLPHUS TOWNS, New York
JOHN SHIMKUS, Illinois               FRANK PALLONE, Jr., New Jersey
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
MARY BONO MACK, California           ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
SUE MYRICK, North Carolina           LOIS CAPPS, California
  Vice Chair                         JANE HARMAN, California
JOHN SULLIVAN, Oklahoma              JAN SCHAKOWSKY, Illinois
TIM MURPHY, Pennsylvania             CHARLES A. GONZALEZ, Texas
MICHAEL C. BURGESS, Texas            JAY INSLEE, Washington
MARSHA BLACKBURN, Tennessee          TAMMY BALDWIN, Wisconsin
BRIAN BILBRAY, California            MIKE ROSS, Arkansas
CHARLIE BASS, New Hampshire          ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
BOB LATTA, Ohio                      JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California       
GREGG HARPER, Mississippi            
LEONARD LANCE, New Jersey            
BILL CASSIDY, Louisiana              
BRETT GUTHRIE, Kentucky              
PETE OLSON, Texas                    
DAVID McKINLEY, West Virginia        
CORY GARDNER, Colorado               
MIKE POMPEO, Kansas                  
ADAM KINZINGER, Illinois             
MORGAN GRIFFITH, Virginia            
                                     
<RULE>_________________________________________________________________

                           Professional Staff

   David McCarthy, Chief Counsel
  Jerry Couri, Professional Staff
 Peter Kielty, Senior Legislative 
               Clerk
Jacqueline Cohen, Minority Counsel
     Alison Cassady, Minority 
        Professional Staff

                                  (ii)
                Subcommittee on Environment and Economy

                         JOHN SHIMKUS, Illinois
                                  Chair
TIMOTHY F. MURPHY, Pennsylvania      GENE GREEN, Texas
  Vice Chair                           Ranking Member
ED WHITFIELD, Kentucky               TAMMY BALDWIN, Wisconsin
JOE PITTS, Pennsylvania              G.K. BUTTERFIELD, North Carolina
MARY BONO MACK, California           JOHN BARROW, Georgia
JOHN SULLIVAN, Oklahoma              DORIS O. MATSUI, California
CHARLIE BASS, New Hampshire          FRANK PALLONE, Jr., New Jersey
BOB LATTA, Ohio                      DIANA DeGETTE, Colorado
CATHY McMORRIS RODGERS, Washington   LOIS CAPPS, California
GREGG HARPER, Mississippi
BILL CASSIDY, Louisiana
CORY GARDNER, Colorado
JOE BARTON, Texas


  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     4
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................     6
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     6
Hon. Cory Gardner, a Representative in Congress from the State of 
  Colorado, prepared statement...................................     7
Hon. Cathy McMorris Rodgers, a Representative in Congress from 
  the State of Washington, prepared statement....................     8
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     9

                               Witnesses

Randall Lutter, visiting scholar, Resources for the Future.......    10
    Prepared statement...........................................    13
    Answers to submitted questions \1\...........................
Karen Harned, executive director, National Federation of 
  Independent Business Legal Center..............................    28
    Prepared statement...........................................    30
    Answers to submitted questions...............................   191
Christopher DeMuth, D.C. Searle senior fellow, American 
  Enterprise Institute...........................................    37
    Prepared statement...........................................    39
Rena Steinzor, president, Center for Progressive Regulation, 
  University of Maryland School of Law...........................    51
    Prepared statement...........................................    53
    Answers to submitted questions \2\...........................
Leonard F. Hopkins, fuel procurement and reliance manager, 
  Southern Illinois Power Cooperative............................    91
    Prepared statement...........................................    94
Joseph Baird, partner, Baird Hanson LLP..........................   142
    Prepared statement...........................................   144
    Answers to submitted questions...............................   195
Marcia Y. Kinter, vice president, Government and Business 
  Information, Specialty Graphic Imaging Association.............   155
    Prepared statement...........................................   157
    Answers to submitted questions...............................   208
Wendy Neu, executive vice president, Hugo Neu Corporation........   162
    Prepared statement...........................................   164
    Answers to submitted questions...............................   211
Vince Ryan, county attorney, Harris County, Texas................   170
    Prepared statement...........................................   173

----------
\1\ Mr. Lutter did not respond to submitted questions for the 
  record.
\2\ Ms. Steinzor did not respond to submitted questions for the 
  record.


            ENVIRONMENTAL REGULATIONS, THE ECONOMY, AND JOBS

                              ----------                              


                       TUESDAY, FEBRUARY 15, 2011

                  House of Representatives,
           Subcommittee on Environment and Economy,
                           Committee on Energy and Commerce
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 1:04 p.m., in 
room 2322 of the Rayburn House Office Building, Hon. John 
Shimkus [Chairman of the Subcommittee] presiding.
    Members present: Representatives Shimkus, Murphy, 
Whitfield, Pitts, Bono Mack, Bass, Latta, McMorris Rodgers, 
Harper, Cassidy, Gardner, Barton, Upton, Green, Butterfield, 
Barrow, Pallone, Capps, and Waxman (ex officio).
    Staff present: David McCarthy, Counsel; Jerry Couri, Senior 
Environment Policy Advisor; Peter Kielty, Senior Legislative 
Clerk; Chris Sarley, Senior LA; Alex Yergin, Legislative Clerk; 
Elizabeth Lowell, Legislative Clerk; Jacqueline Cohen, Minority 
Counsel; Alison Cassady, Minority Professional Staff Member; 
Caitlin Haberman, Minority Policy Analyst; and Abigail Pinkele, 
Legislative Director, Rep. Green.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. We will call the subcommittee to order. Again, 
first of all, apologies for being a few minutes late. We just 
finished a vote in the full committee, so people will be 
meandering up here. Also, we are supposed to have a recorded 
vote around 1:15 to 1:30, so our intent is to start getting the 
testimony, opening statements out of the way, and then 
hopefully we can move expeditiously.
    And I will begin. I would like to welcome everyone to the 
first hearing of the Environment and the Economy Subcommittee 
for the 112th Congress. I am honored to serve as the chairman 
of the subcommittee and excited about the opportunity to work 
with members from both sides of the aisle. I particularly want 
to welcome and congratulate Mr. Green on being named ranking 
member. We have already spoken numerous times. We are friends 
from many years, more than we would like to mention, and I have 
enjoyed working with him in the past and look forward to doing 
so in our future capacities on this subcommittee.
    From taking a shower in the morning to turning off the 
lights before bed, our daily lives are constantly touched by 
environmental regulations under the jurisdiction of this 
subcommittee. That might be obvious from its name, but what 
might not be so clear is the important nexus with the 
``economy'' portion of the title. Due to environmental 
regulations, families have to pay higher rates to turn on those 
lights or water, and there is also the great impact that these 
higher costs have a consequence.
    We heard from Timberland last week of forcing jobs overseas 
when overbearing regulations stifle the marketplace. It is a 
necessary and healthy exercise to review regulations to make 
sure congressional intent is being followed and the best 
interests of our nations are protected. We cannot just look at 
regulations in individual silos.
    People don't have the luxury of being able to comply with 
regulations in the abstract or singularly. Rather, they must 
face all regulations together at the same time. That is why I 
think we need to weigh the benefits compared to the collective 
burdens placed on businesses trying to navigate through a 
struggling economy to keep jobs here at home.
    More to the point, while one regulation alone may not close 
a business, the cumulative effect could be devastating, 
resulting in death by 1,000 cuts. Since 2009, when President 
Obama took office, the U.S. Environmental Protection Agency has 
finalized 928 rules and proposed 703 others. As we overload the 
nation with these proposed and finalized regulations, we need 
to ensure that in an effort to do a good thing, our government 
is not creating unintended consequences.
    According to the U.S. Chamber of Commerce, the problem is 
not simply the EPA is issuing a lot of regulations, rather it 
is that it has significantly increased the number of major 
rules. That is to say rules costing the regulating community 
more than $100 million. These regulations typically ensnare 
multiple industry sectors and have economy-wide costs usually 
measuring in billions or even trillions of dollars, making 
their economic impact so widespread that multiple sectors of 
the economy must face substantial compliance costs.
    This is not sustainable for our economy. Regulating 
existing businesses into the ground on the hope that better 
ones will come later is irresponsible. Policies like those have 
starved free enterprise, bankrupting many larger States. We 
must protect jobs that exist now while working to open the 
doors for new opportunity to do business in the United States.
    It is also no secret that our federal budget problem is 
also infringing on the ability of private persons to access 
capital to expand their businesses. For this reason, our 
regulations should attack the worst problems first, doing so in 
a way that avoids broad brushstrokes that insist on expensive 
but nonproductive requirements that take resources away from 
businesses that would otherwise be growing our economy. There 
is a finite pot of resources that the Federal, State, local and 
private interests can bring to bear on any particular problem. 
Once those resources are committed to a problem, they are gone, 
leaving that much less to attack the remaining problems we 
face.
    Let me be clear. We are not seeking to strip basic public 
health and safety protections. Public health should be 
protected in a way that encourages all public welfare. A 
climate that welcomes development and encourages reinvestment 
creates a kind of wealth and fairness that needs to be 
encouraged. As chairman of this subcommittee, I work to make 
certain any environmental policies deride from this 
subcommittee will promote the public welfare as a whole while 
sustaining and creating new jobs and growth in our economy by 
letting valid, objective and repeatable science drive the 
debate.
    This is a critical aspect EPA has strayed from in recent 
years, and Congress must work with the Administration to 
refocus this attention. Today's hearing, Environmental 
Regulations: The Economy and Jobs, is a fitting start to this 
mission and will provide the subcommittee a solid foundation to 
build.
    Our first panel will give us a broad view of the economics 
regulations and processes issued by EPA to understand where 
they are causing exasperate economic problems, or in other 
cases, where gaps might exist. Witnesses on the second panel 
will give us a direct perspective on EPA regulations that are 
affecting small businesses and possible consequences moving 
forward.
    I particularly would like to welcome Leonard Hopkins from 
the Southern Illinois Power Cooperative for being here today. 
Through the co-op, Mr. Hopkins helps supply power with 
reasonable utility rates to constituents in my district. 
Unfortunately a proposed coal combustion residue regulation may 
put their ability to serve over 250,000 customers in rural 
Illinois in jeopardy.
    It is unrealized stresses like these that make it essential 
we understand the full spectrum of effects regulations may 
have. All of our witnesses here today are valuable to our 
understanding, and I would like to thank them all for taking 
the time to be here. Their testimony and participation with 
questions will help us better understand the jobs and economic 
growth and the relationship to our regulatory framework.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared Statement of Hon. John Shimkus

    The subcommittee will now come to order. I'd like to 
welcome everyone to the first hearing of the Environment and 
the Economy Subcommittee for the 112th Congress. I'm honored to 
serve as the Chairman of this subcommittee and excited about 
the opportunity to work with members from both sides of the 
aisle. I particularly want to welcome and congratulate Mr. 
Green on being named our Ranking Member. I have enjoyed working 
with him in the past and certainly look forward to doing so in 
our capacities on this subcommittee.
    From taking a shower in the morning to turning off the 
lights before bed, our daily lives are constantly touched by 
environmental regulations under the jurisdiction of this 
subcommittee. That might be obvious from its name, but what 
might not be so clear is the important nexus with ``economy'' 
portion in the title. Due to environmental regulations families 
have to pay higher rates to turn on those lights or water. And, 
there is also the grave impact that these higher costs have the 
consequence, as we heard from Timberland last week, of forcing 
jobs overseas when overbearing regulations stifle the 
marketplace.
    It is a necessary and healthy exercise to review 
regulations to make sure congressional intent is being followed 
and the best interests of our nation are protected. We cannot 
just look at regulations in individual silos. People don't have 
the luxury of being able to comply with regulations in the 
abstract or singularly. Rather, they must face all regulations 
together at the same time. This is why I think we need to, 
weigh the benefits compared to the collective burdens placed on 
businesses trying to navigate through a struggling economy to 
keep jobs here at home.
    More to the point, while one regulation alone may not close 
a business, the cumulative effect could be devastating--
resulting in death by one-thousand cuts. Since 2009 when 
President Obama took office, the U.S. Environmental Protection 
Agency (EPA) has finalized 928 rules and proposed 703 others. 
As we overload the Nation with these proposed and finalized 
regulations, we need to ensure that in an effort to do a good 
thing our government is not creating unintended consequences.
    According to the U.S. Chamber of Commerce, ``the problem is 
not simply that EPA is issuing a lot of regulations. Rather, it 
is that it has significantly increased the number of major 
rules, that is to say rules costing the regulated community 
more than $100 million. These regulations typically ensnare 
multiple industry sectors and have economy-wide costs usually 
measuring in billions or even trillions of dollars''--making 
their ``economic impact so widespread that multiple sectors of 
the economy must face substantial compliance costs.''
    This is not sustainable for our economy. Regulating 
existing businesses into the ground on the hope that better 
ones will come later is irresponsible. Policies like these have 
starved free enterprise, bankrupting many large states. We must 
protect jobs that exist now while working to open the doors for 
new opportunity to do business in the United States.
    It is also no secret that our federal budget problem is 
also infringing on the ability of private persons to access 
capital to expand their businesses. For this reason, our 
regulations should attack the worst problems first doing so in 
a way that avoids broad brush strokes that insist on expensive, 
but non-protective requirements that take resources away from 
businesses that would otherwise be growing our economy. There 
is a finite pot of resources that federal, state, local, and 
private interests can bring to bear on any particular problem. 
Once those resources are committed to a problem, they are gone, 
leaving that much less to attack the remaining problems we 
face.
    Let me be clear, we are not seeking to strip basic public 
health and safety protections. Public health should be 
protected in a way that encourages all public welfare. A 
climate that welcomes development and encourages reinvestment 
creates the kind of wealth and fairness that needs to be 
encouraged.
    As Chairman of this subcommittee, I will work to make 
certain any environmental policies derived from this 
subcommittee will promote the public welfare as a whole while 
sustaining and creating new jobs and growth in our economy by 
letting valid, objective, and repeatable science drive the 
debate. This is a critical aspect EPA has strayed from in 
recent years and Congress must work with the Administration to 
refocus this attention.
    Today's hearing, ``Environmental Regulations, the Economy, 
and Jobs'' is a fitting start to this mission and will provide 
the subcommittee a solid foundation to build from.
    Our first panel will give us a broad view on the economics 
of regulations and processes issued by the EPA to understand 
where they are causing exasperated economic problems or in 
other cases where gaps might exist. Witnesses on the second 
panel will give us a direct perspective on EPA regulations that 
are affecting small businesses and possible consequences moving 
forward.
    I particularly would like to welcome Leonard Hopkins from 
the Southern Illinois Power Cooperative for being here today. 
Through the Co-op Mr. Hopkins helps supply power with 
reasonable utility rates to constituents in my district. 
Unfortunately the proposed coal combustion residue regulation 
may put their ability to serve over 250,000 customers in rural 
Illinois in jeopardy. It's unrealized threats like these that 
make it essential we understand the full spectrum of effects 
regulations may have.
    All our witnesses here today our valuable to our 
understanding and I'd like to thank all of them for taking the 
time to be here. Their testimony and participation with 
questions will help us better understand jobs and economic 
growth and their relationship to our regulatory framework.

    Mr. Shimkus. And with that, I will stop, and I will yield 
time to the ranking member Mr. Green from Texas.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman. I want to thank you for 
calling the hearing today because we all share an interest in 
ensuring appropriate balance between the cost and benefits in 
environmental regulation. I would also like to thank all our 
witnesses, not only on the first panel, but also for the second 
for taking their time to be here today.
    I also want to thank Chairman Shimkus for favorably 
responding to the request, mine along with Ranking Member 
Waxman's written request that two additional minority witnesses 
on the second panel, our county attorney for Harris County, 
Houston, Texas, Vince Ryan, and Wendy Neu of the Hugo Neu 
Corporation.
    The addition of these witnesses to today's panels will 
present a balance discussion. I hope that for future hearings 
this committee will continue to strive for fair and balanced 
panels to allow a real examination of the important issues.
    I would also like to take a moment to describe some of the 
benefits and potential benefits of environmental regulation 
that I hear when I meet with companies in green industries, 
like Hugo Neu Corporation, which is leading the way on 
recycling electronic waste. My staff and I have worked with 
many stakeholders in recycling companies such as the one owned 
by Wendy Neu as we introduced legislation year and have been 
developing revised legislation for electronic waste. It is my 
hope that we can have a hearing on the legislation when we 
introduce and hear from some of the green businesses that will 
welcome the new economic benefit of the new e-waste 
regulations.
    I also hear about the benefits of environmental regulations 
from my constituents who know all too well that environmental 
regulation can have significant economic benefits in the form 
of avoided cost. For years, I have been working with local 
officials in Harris County, Texas to address a significant 
threat from a Superfund site near our district, the San Jacinto 
Waste Pits.
    In the 1960s, a paper mill in our district dumped dioxin 
containing waste into a waste pit on a sand bar in the San 
Jacinto River. Unfortunately, the Resource Conservation 
Recovery Act did not yet pass, and regulations for disposal of 
the dioxin waste from paper mills were not yet developed. If 
these regulations had been in place, the waste would not have 
been dumped where they were, and the Superfund site would not 
have to be created. Now that the San Jacinto River has 
reclaimed that sandbar, the contamination is widespread and 
cleanup will be very costly.
    Harris County officials and EPA have been working hard to 
ensure that taxpayers don't bear the cost of that cleanup, and 
they are continuing to fight. Proper waste regulations could 
have avoided these cleanup costs and these litigation costs and 
could have protected the people of our district.
    With that, I would like to thank the witnesses again for 
appearing today, and particularly thank Wendy Neu and Vince 
Ryan who are appearing on very short notice. Mr. Ryan is our 
Harris County attorney, and his office has worked diligently on 
the San Jacinto Waste Pits for several years. And I know the 
Houston area and our district particularly appreciate it.
    Mr. Chairman, I look forward to working with you, and I 
appreciate the first hearing.
    Mr. Shimkus. Thank you, Mr. Green. Now I would like to 
recognize Chairman Emeritus Barton for 2 minutes.
    Mr. Barton. Thank you, Mr. Chairman. I will submit the full 
subject for the record. I want to thank our witnesses for 
attending today's hearing. Your subcommittee, Mr. Chairman, is 
the third subcommittee of the Energy and Commerce Committee to 
hold a hearing on the promulgation of the regulations and the 
economic impact that those regulations have on our economy. We 
have heard from the Environmental Protection Agency and the 
Office of Regulatory Affairs of the Obama Administration with 
the other two subcommittees.
    Today we are going to hear from the private sector and see 
how these regulations impact the economies in their parts of 
the country. Unemployment is over 9 percent, Mr. Chairman. The 
mantra on both sides of the aisle is jobs, jobs, jobs. The 
Obama Administration says that they want their regulations to 
pass some sort of a cost-benefit analysis. But we know, 
especially at the Environmental Protection Agency, that they 
tend to pay only lip service to that. So in today's hearing, I 
am sure we are going to hear from the private sector how those 
regulations impact them, and we are also going to hear probably 
some good input on what kind of a cost-benefit and economic 
analysis should be done.
    With that, Mr. Chairman, I yield back, and I look forward 
to your chairmanship of this vital subcommittee.
    [The prepared statement of Mr. Barton follows:]

                 Prepared Statement of Hon. Joe Barton

    Thank you Mr. Chairman. Today's hearing marks the third 
hearingthis committee has held related to this topic: the lack 
of economic impact considered by the Obama Administration and 
its agencies when promulgating regulations. The Oversight and 
Investigations and the Energy and Power subcommittees held 
hearings highlighting the disastrous effects to our economy and 
domestic job market brought on by of overly burdensome, 
redundant, and rushed regulations. The Administrators from the 
Office of Information and Regulatory Affairs and the 
Environmental Protection Agency testified and they both assured 
us that their agencies and the Obama Administration do not want 
to suppress economic growth with unnecessary regulations.
    I hear what their saying, but I want them to make me, and 
theAmerican public, believe it by what they are doing. With 
unemployment at over 9 percent and American companies and jobs 
moving overseas at a rapid rate we must do something now to get 
our economy growing again. As members of Congress it is our 
responsibility to make sure that our small businesses and job 
creators are not stifled by overregulation, but are encouraged 
and rewarded for being conscientious corporate citizens that 
find and maintain the balance between profits and pollution 
control, earnings and environmental clean-up, revenues, and 
recycling.
    I have and will support legislation and regulations that 
protect our public's health and environment, but I will not 
support legislation and regulations that do more economic harm 
than good at little to no benefit to the public. Over the last 
2 years, I have sent letters to the EPA, the Department of 
Health and Human Services, the Department of the Interior, and 
President Obama asking the Administration and its agencies to 
review passed and proposed regulations and conduct a cost-
benefit analysis on these regulations. Several of the witnesses 
today will emphasize the need for this type of analysis and 
explain how new regulations have negatively impacted their 
ability to help our economy recover and help the environment. I 
look forward to their testimony.

    Mr. Shimkus. The gentleman yields back his time. Now, the 
chair recognizes the chairman of the Full Committee, Mr. Upton 
from Michigan.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you Mr. Chairman. I am sorry I am a 
moment late from being downstairs. This is an important 
hearing. Your testimony is crucial to helping us understand 
what improvements are needed in the regulatory process to 
ensure that it allows for economic prosperity.
    Somehow we have lost our way. Those small businesses and 
manufacturers who should be driving our economic recovery are 
choking from burdensome red tape, weathering in an agency-wide 
regulatory epidemic that seems bent on accomplishing a single-
minded purpose without regard to fixing the economy and 
protecting jobs. Not to mention environmental regs also 
substantially raise costs on the public sector, and these costs 
are not easily absorbed.
    Just this past December, EPA published guidelines for 
preparing economic analyses. This document is to govern EPA's 
regulatory actions. It states ``regulatory-induced employment 
impacts are not in general relevant to the benefit-cost 
analysis.'' The bureaucratic insensitivity towards those folks 
in Michigan and across the nation who are struggling to make 
ends meet is stunning. It is guidelines like this that have 
catapulted the country into a perpetual state of soaring 
unemployment and economic uncertainty. The time has come to 
stop asking the American family, the American small business, 
the innovators, and the risk takers to bear any burden and pay 
any price.
    Many of our constituents who are struggling to compete in 
this tough economy say that government regs are like a piano on 
their back. Despite executive orders from a number of 
presidents calling for economic impact analyses or job impact 
analyses, the relief never seems to come. We have to focus the 
government on serving the people instead of hamstringing them.
    Mr. Chairman, these values and principles should drive the 
president in all federal agencies. No one here today is saying 
don't regulate. We are simply saying regulate only when the 
good it will accomplish clearly outweighs the harm. Today's 
hearing is a positive step forward on that journey to help the 
executive branch develop a conscience and an understanding 
about the impact on the economy and jobs and families for every 
regulation it pursues. So let us get going. Thank you. Yield 
back.
    Mr. Shimkus. The gentleman yields back his time. I now 
recognize Mr. Gardner from Colorado for 30 seconds.
    Mr. Gardner. Thank you, Mr. Chairman. In the short time 
that I have been in this Congress, I have had an incredible 
number of people come into my office and talk about the effect 
that regulations have or may have on their business. Our 
country is still fighting its way out of a recession, and our 
government's response many times seems to be adding more 
handcuffs than solutions.
    We have an obligation to our environment, to our children, 
and future generations, but it is time we do so in a common 
sense way driven by the interests of the people and not the 
special interests.
    [The prepared statement of Mr. Gardner follows:]

                Prepared Statement of Hon. Cory Gardner

    Mr. Chairman, in the short time that I have been in 
Congress I have already had an incredible number of employers 
come to my office to explain how the government is regulating 
them out of business. Those who are not already feeling the 
pinch from over-regulation are worried about the vast array of 
regulatory proposals. Our country is still fighting its way out 
of a recession. And our government's response to the situation 
has been to handcuff the very entities that are trying to lead 
us out of it.
    Today we are here to address environmental regulations in 
particular. With Colorado's extensive energy and agriculture 
industries, this is an area of great concern to me. This 
Committee has a duty to examine sweeping federal rule changes 
that have the potential to cripple various sectors of our 
economy and negatively affect Colorado businesses and I am 
happy to see that we are taking that step today.
    EPA has consistently acted to accelerate its rulemaking 
processes leading to legally dubious, poorly conceived, and 
arbitrary regulations that are not only hurtful to businesses 
but often have little to no environmental benefit. The laws 
that comprise the basis for many of these new rules have not 
changed in years, sometimes decades. The words on the pages 
have not changed, and yet EPA is constantlyfinding new 
authority under those same laws.
    We know that EPA rarely, if ever, does a true cost benefit 
analysis of its actions. One that considers job loss and 
economic damage. Given that EPA has decided that it does not 
need to concern itself with such things, I am encouraged that 
Congress has decided to take up the cause and I am proud to be 
here today as our committee holds this hearing on behalf of the 
hard working Americans who are affected by these policies. I 
would like to thank all of the witnesses for being with us, and 
I look forward to hearing the witness's answers to many of our 
questions on how the government's efforts have affected private 
industry.
    Thank you, Mr. Chairman. I yield back my time.

    Mr. Shimkus. The gentleman's time has expired. To the 
chairman emeritus--we only have 30 seconds left. I will give 
you a chance to get situated, and then we will recognize Cathy 
McMorris Rodgers for 30 seconds right now.
    Ms. McMorris Rodgers. Thank you, Mr. Chairman. I thank you 
for holding this important hearing, and I thank all the 
witnesses for taking time out of their schedules to be here. I 
wanted to give a special welcome to Joe Baird, president of the 
Northwest Mining Association for being here today.
    Despite effective safeguards, the EPA has decided that it 
needs to step in and add regulations that will all but certain 
drain the mining industry of its capital, making us more 
dependent upon other countries for important minerals.
    I mentioned on the floor last week this is not what America 
is about, and I look forward to hearing from our witnesses on 
how we can keep the dream alive.
    [The prepared statement of Ms. McMorris Rodgers follows:]

           Prepared Statement of Hon. Cathy McMorris Rodgers

    Mr. Chairman, I would like to thank you for holding this 
important hearing and our witnesses for taking time out of 
their schedules to be here today.
    I would like to give a special welcome to Joe Baird, 
President of the Northwest Mining Association, for being here 
today.
    Joe's testimony will demonstrate first hand EPA's unbridled 
power grab. Despite effective safeguards implemented by states, 
the EPA has decided that it needs to step in and add 
regulations that will all but certain drain this industry of 
its capital--forcing businesses to cut jobs, jobs that could 
benefit communities experiencing unemployment rates well above 
the national average--and force the only cobalt mine in this 
country to close - making us even more dependent upon other 
countries for this important mineral.
    As disturbing, Mr. Baird's testimony describes the current 
statutory and regulatory framework under which mineral 
exploration and operation on federal lands must operate. Let me 
just read a few of the statutes and regulations: the Clean 
Water Act, the Safe Drinking Water Act, the Clean Air Act, the 
National Environment Policy Act, the Toxic Substances Control 
Act, the Resources Conservation and Recovery Act, the 
Endangered Species Act, in addition to a plethora of surface 
management regulations issued by BLM and USFS just for mining.
    As I mentioned on the floor last week, regulation is not 
what this nation is about. America is about entrepreneurialism, 
innovation, and preserving the American Dream. I look forward 
to hearing from our witnesses as to how we can keep the dream 
alive.
    I yield back the balance of my time.

    Mr. Shimkus. I thank the gentlewoman, and now I recognize 
Mr. Waxman for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman. Today's 
hearing is entitled Environmental Regulations: The Economy and 
Jobs. I think this is a worthy topic for discussion if we do it 
right. Unfortunately, I am concerned that today's hearing may 
simply be a platform for complaints about our landmark laws 
designed to protect taxpayers and the public health.
    We will hear complaints about Superfund, The Resources, 
Conservation and Recovery Act, The Toxic Substances Control 
Act. We will hear complaints about laws outside of this 
subcommittee's jurisdiction like the Clean Air Act. The 
environmental laws we will discuss today form the cornerstone 
of public health protections. Before Superfund and RCRA, there 
was Love Canal, a New York neighborhood built atop of thousands 
of tons of toxic waste, carelessly disposed of in a ditch.
    Before The Safe Drinking Water Act, the American public had 
no assurances that the water coming from their tap was free of 
cancer-causing chemicals and dangerous bacteria. Today we will 
hear precious little about the benefits of protecting the 
public health from these toxic exposures. Instead the 
subcommittee is likely to focus solely on the economic costs of 
environmental regulations. I have no objection to discussing 
the economics of environmental regulation, but any fair and 
balanced discussion should include both sides of the equation, 
the economic benefits as well as the costs.
    Environmental regulations protect the economy as well as 
society from the devastating cost of pollution. In the absence 
of sound regulation, when polluters are allowed to pollute, the 
costs of that pollution don't simply disappear. Instead, 
innocent parties have to pick up the tab. Our health care 
system has to bear the weight of asthmatic children and more 
adults with cancer. Businesses have to absorb the costs of 
employees who miss work due to chronic illness.
    Municipalities have to cover the costs of cleaning up toxic 
pollution before it reaches drinking water supplies. 
Environmental regulations protect the public from these 
impacts. They can also spur economic growth and job creation. 
Expenditures for environmental compliance spur investment in 
the design, manufacture, installation, and operation of 
equipment to reduce pollution.
    EPA recently estimated that The Clean Air Act's total 
benefit to the economy is projected to hit $2 trillion by 2020, 
outweighing costs by 30 to 1.
    It is a tenet of our society that we hold people 
accountable for their actions and that we offer protection to 
those who can't protect themselves. When a coal-burning power 
plant fails to invest in new pollution control equipment to 
reduce its toxic mercury emissions, it damages the way our 
children think and learn. That is why the responsible party, in 
this case the coal plant, has an obligation to control its 
emissions.
    As I have said previously, let us put aside the false and 
hyperbolic claims about regulations killing jobs. No one 
supports unnecessary or duplicative regulations. But let us 
also not hesitate to regulate when needed to protect our 
economy and public health.
    Thank you, Mr. Chairman. Yield back the time.
    Mr. Shimkus. And I thank the gentleman. Now I would ask 
unanimous consent that all members of the subcommittee have 5 
legislative days to submit opening statements for the record. 
Without objection, so ordered.
    Now, I would like to welcome our first panel, and you will 
be recognized for 5 minutes. Your full statement will be 
submitted for the record. If you can do, you know, a brief, 
executive summary, and then we will go into questions.
    I would like to thank you for coming. I would like to first 
recognize Randall Lutter, Ph.D., visiting scholar from 
Resources for the Future. Sir, you are recognized for 5 
minutes.

 STATEMENTS OF RANDALL LUTTER, VISITING SCHOLAR, RESOURCES FOR 
   THE FUTURE; KAREN HARNED, EXECUTIVE DIRECTOR, NFIB LEGAL 
CENTER; CHRISTOPHER DEMUTH, D.C. SEARLE SENIOR FELLOW, AMERICAN 
ENTERPRISE INSTITUTE; AND RENA STEINZOR, PRESIDENT, CENTER FOR 
  PROGRESSIVE REGULATION, UNIVERSITY OF MARYLAND SCHOOL OF LAW

                  STATEMENT OF RANDALL LUTTER

    Mr. Lutter. Thank you very much, Mr. Chairman, honorable 
members of the committee. I am pleased to appear today to offer 
my views on Environmental Regulation: The Economy and Jobs, an 
important topic because both the environment and----
    Mr. Shimkus. Sir, if you could just pull your mike down a 
little bit further.
    Mr. Lutter. Are important to Americans. As an economist, I 
believe that careful analysis of the effects of regulations can 
help in designing regulations to offer clear net benefits to 
Americans and to avoid unnecessary burdens. Careful regulatory 
analysis can also help promote both public understanding of 
regulatory decisions and accountability for the regulators.
    I speak as an economist who has been involved in regulatory 
policy for more than 2 decades. I have had the privilege of 
serving Democratic and Republican presidents, including 
positions at the Federal Office of Management and Budget, the 
President's Council of Economic Advisors, and the Food and Drug 
Administration. I am currently visiting scholar at Resources 
for the Future, a nonprofit, nonpartisan organization that 
conducts independent research on environmental energy, natural 
resource, and environmental health issues. I have conducted 
research at the American Enterprise Institute and the AEI 
Brookings Joint Center for Regulatory Studies. I have no 
conflicts of interest to report, and I emphasize that the views 
I present today are mine alone. RFF takes no institutional 
position on legislative, judicial, regulatory, or other public 
policy matters.
    An important concern these days is employment. The 
commissioner of the Federal Bureau of Labor Statistics recently 
announced the unemployment rate declined from 9.4 to 9 percent 
in January. Nonfarm employment, now about a million over the 
low of a year ago, is 7.7 million below the highest level of 
the last decade, nearly 138 million jobs. Plus nonfarm 
employment needs strong and sustained growth to match levels 
seen before the recent recession. Cyclical transit employment 
and unemployment are, however, a macroeconomic phenomenon best 
addressed through fiscal and monetary policy and sound 
financial regulation topics beyond my scope today.
    The consensus view among economists about the role of 
economic analysis and environmental regulation is that it is an 
exceptionally useful framework for consistently organizing 
disparate information, and in this way, it can greatly improve 
the process and the outcome of policy analysis and 
deliberations. This idea has become part of a centralized 
process of regulatory review outlined in Executive Order 12866, 
which President Clinton issued in '93, replacing an earlier 
Executive order of comparable scope signed by President Reagan.
    Executive Order 12866 does not mention employment or jobs 
in its 12 principles, but it directs agencies to conduct an 
assessment including the underlying analysis of costs 
anticipated from the regulatory action, such as any adverse 
effects on the efficient functioning of the economy including 
productivity, employment, and competitiveness.
    President Obama's January 18 Executive Order 13563 on 
improving regulation and regulatory review reaffirms the 
earlier one and mentions the promotion of job creation under 
general principles.
    I turn to how the Environmental Protection Agency has 
analyzed and considered possible effects of its regulations on 
employment. I have looked at several regulatory impact analyses 
of proposed major rules recently released by the agency and 
found a variety of practices. For two regulations, coal 
combustion and ozone, EPA provided no information and no 
explanation for the lack of analysis. One of these, a proposed 
standard for ozone, is very likely to have adverse effects on 
local labor markets because of the difficulty of achieving cuts 
in emissions of 90 percent or greater. EPA has estimated 
positive but statistically insignificant effects on employment 
for one regulation, industrial boilers, and modest negative 
effects for another, Portland Cement.
    Evaluating these different approaches to employment effects 
is difficult because ONB's guidance implementing Executive 
Order 12866 does so little to clarify how agencies should 
assess effects on employment. Recently, however, EPA has 
released a new guidance on this issue.
    My own recommendations, regulatory agencies first should 
issue regulations only where the benefits demonstrably justify 
the cost, and they should take full advantage of statutory 
authority to use market-based regulatory mechanisms.
    In addition, the Office of Management and Budget should 
issue an addendum to A4 about how agencies should analyze 
effects of regulations on employment, but only after soliciting 
and considering public comment and genuinely independent expert 
advice. The focus of such guidelines should be on identifying 
what employment can be quantified reliably and what 
quantifications procedures are appropriate, and the guidelines 
should reconsider excluding from benefit-cost analysis the cost 
of job losses induced by regulations.
    The guidelines should also provide for distributional 
analyses of effects on those workers who are at significant 
incremental risk of job loss and who would face barriers to 
finding another job.
    I understand my written testimony will be part of the 
record, and I will be, of course, available for questions.
    [The prepared statement of Mr. Lutter follows:]

    [GRAPHIC] [TIFF OMITTED] T5773.001
    
    [GRAPHIC] [TIFF OMITTED] T5773.002
    
    [GRAPHIC] [TIFF OMITTED] T5773.003
    
    [GRAPHIC] [TIFF OMITTED] T5773.004
    
    [GRAPHIC] [TIFF OMITTED] T5773.005
    
    [GRAPHIC] [TIFF OMITTED] T5773.006
    
    [GRAPHIC] [TIFF OMITTED] T5773.007
    
    [GRAPHIC] [TIFF OMITTED] T5773.008
    
    [GRAPHIC] [TIFF OMITTED] T5773.009
    
    [GRAPHIC] [TIFF OMITTED] T5773.010
    
    [GRAPHIC] [TIFF OMITTED] T5773.011
    
    [GRAPHIC] [TIFF OMITTED] T5773.012
    
    [GRAPHIC] [TIFF OMITTED] T5773.013
    
    [GRAPHIC] [TIFF OMITTED] T5773.014
    
    [GRAPHIC] [TIFF OMITTED] T5773.015
    
    Mr. Shimkus. Thank you, Dr. Lutter. Now I would like to 
recognize Ms. Karen Harned, executive director, NFIB Legal 
Center. Welcome, and you have 5 minutes.

                   STATEMENT OF KAREN HARNED

    Ms. Harned. Thank you. Good afternoon, Chairman Shimkus and 
Ranking Member Green. NFIB, the Nation's largest small business 
advocacy organization, appreciates the opportunity to testify 
on the importance of assessing small business impact in the 
regulatory process. Overzealous regulation is a perennial cause 
of concern for small business owners and is particularly 
burdensome in times like these when the Nation's economy 
remains sluggish.
    According to a recent study, regulation costs the American 
economy $1.75 trillion a year. More concerning, small 
businesses face an annual regulatory cost of $10,585 per 
employee, 36 percent more than the regulatory cost facing 
businesses with more than 500 employees. Job growth in America 
remains stagnant. Although small businesses create two-thirds 
of the net new jobs in this country, the NFIB research 
foundation's most recent addition of ``Small Business Economic 
Trends'' revealed in the next 3 months, 12 percent of 
respondents planned to increase employment, while 8 percent 
plan a reduction in workforce.
    Small business owners consistently cite government 
regulation as one of their primary problems in running their 
business. In its most recent addition of SBET, the NFIB 
research foundation found that 17 percent of small business 
owners describe government regulations and red tape to be their 
single most important problem. Only taxes and poor sales were 
more commonly cited. In fact, for the past 26 months of the 
survey, regulation and red tape has been in the top three of 
problems. This is not a recent trend either.
    NFIB surveys demonstrate that overzealous government 
regulation has ranked in the top 10 of problems facing small 
businesses since 1991. Reducing the regulatory burden will go a 
long way toward giving entrepreneurs the confidence they need 
to expand their workforce in a meaningful way.
    Recently, the Administration acknowledged that excessive 
and duplicative regulation has a damaging effect on the 
American economy. NFIB believes that it has been a long time 
coming for small business owners to hear the Administration 
emphasis the harmful effects of overregulation on small 
business and job creation. We will be watching closely to see 
if last month's directive leads to real regulatory reform. 
Moreover, NFIB hopes that the president's order causes agencies 
to more closely follow the letter and spirit of the 
Administrative Procedures Act.
    When agencies do not follow the procedures of the APA, they 
frequently enact one-size-fits-all rules that are not sensitive 
to the unique circumstances of small businesses. An important 
tool in the arsenal to ensure that federal regulations are 
developed in a way that considers small business impact is the 
Small Business Regulatory Enforcement and Fairness Act. SBREFA 
requires federal agencies to analyze the impact of proposed of 
regulations on small firms and as a result, give small 
businesses a voice in the federal rule-making process. SBREFA, 
when followed correctly, can be a valuable instrument for 
agencies to identify flexible and less burdensome regulatory 
alternatives.
    SBREFA and its associated processes, such as the Small 
Business Advocacy Review Panels, are important ways for 
agencies to understand how small businesses fundamentally 
operate, how the regulatory burden disproportionately impacts 
small business, and how the agency can develop simple and 
concise guidance materials.
    While SBREFA itself is a good first step, in order for it 
to provide the regulatory relief that Congress intended, the 
agencies must make good faith efforts to comply with it. By 
following the letter and spirit of SBREFA, agencies like EPA 
would avoid many of the unnecessary burdens and costs of 
regulations small businesses experience.
    Unfortunately for small businesses, however, through the 
years, a number of EPA regulations have failed to account for 
the unique characteristics of small business. For example, 
EPA's lead-based paint renovation, repair, and painting rule 
has been problematic for small businesses that engage in 
renovation and construction work. The rule requires small 
businesses to pay for expensive certification and training for 
each of their employees. Certification begins at $304 for 
renovators and $550 for painting activities or both painting 
and renovating. Fees could cost thousands of dollars per firm 
depending on the number of employees they have.
    Although Superfund was enacted in 1980, NFIB has heard from 
members with businesses that have been named as a potentially 
responsible party in a third-party lawsuit. They have been 
forced to spend thousands of dollars and an excessive amount of 
time defending themselves when they did nothing wrong or 
illegal or do not have the records to prove their innocence.
    When EPA and other agencies follow the procedures for 
evaluating small business impact of regulations before they are 
promulgated. It is a win-win for the economy, the public, and 
small business. Thank you for holding this important hearing. I 
look forward to your questions.
    [The prepared statement of Ms. Harned follows:]

    [GRAPHIC] [TIFF OMITTED] T5773.016
    
    [GRAPHIC] [TIFF OMITTED] T5773.017
    
    [GRAPHIC] [TIFF OMITTED] T5773.018
    
    [GRAPHIC] [TIFF OMITTED] T5773.019
    
    [GRAPHIC] [TIFF OMITTED] T5773.020
    
    [GRAPHIC] [TIFF OMITTED] T5773.021
    
    [GRAPHIC] [TIFF OMITTED] T5773.022
    
    Mr. Shimkus. Thank you, Ms. Harned. And for my colleagues, 
I am going to try to get both opening statements done prior 
votes. I think we can get both in. If I gavel you, it will be 
for that, for our ability to hear. But that is just for 
information for my colleagues.
    Next I would like to recognize Mr. Christopher DeMuth, D.C. 
Senior--Searle Senior Fellow, American Enterprise Institute. 
Sir, you have 5 minutes. There is a button there.

                STATEMENT OF CHRISTOPHER DEMUTH

    Mr. DeMuth. Thank you for having me here today, and in 
light of the time, I will give a brief opening statement.
    Environmental policy and employment policy are two central 
concerns. Americans like high levels of clean air and water, 
and they like high levels of unemployment. These two values 
sometimes clash, and they are clashing today.
    To the economists, taking jobs as the metric of the costs 
of environmental policy is a little bit crude. It is certainly 
important to the elected representative. It is what the general 
public cares about, but one could imagine a good environmental 
rule that had negative employment effects, and one could 
imagine and sometimes sees bad environmental rules that have 
positive employment effects.
    When we regulate, we are buying something: cleaner air and 
water. Just like everything we buy privately, it has a cost, 
and the costs can be higher prices, or they can be less good 
product quality, or they can be lower employment. The question 
of whether it is a good rule or not is a larger one than the 
one of employment.
    In general, environmental regulation has been a great 
success story for America. It has had very large economic 
benefits since our first modern statutes were passed in the 
early 1980s, but we know now that it has been much less cost 
effective than it could have been. We could have gotten much 
more environmental improvements for the money we have spent, or 
we could have gotten the same amount of environmental 
improvements for vastly less money, or a little bit of both.
    There is evidence that EPA regulations have been becoming 
less cost effective over time, following the huge improvements 
that were gained in the 1970s. There is a wide variation in the 
effectiveness of different statutes, and we could revise the 
statutes to get much more environmental gains and much fewer 
costs of the kind the committee is worried about. In my view, 
the reasons for the problems that the committee, your 
subcommittee is focusing on today are two.
    The first is that environmental--that regulatory costs are 
off budget. EPA's budget is a tiny sliver of the billions of 
dollars of costs that its rules impose. But it does not have 
natural incentives to economize on those costs. They are not 
costs to the agency. They are costs to the private sector or 
municipalities or schools or whatever.
    The costs are relatively insensible to the public. They 
take the form of higher prices or plants that aren't built or 
sometimes plants that are shut down, and as a result, agencies 
often go too far. The regulatory agency will get a 90 percent 
elimination of some risk or pollution level. It will then want 
to go for another 8 percent, and it will then want to go for 1-
and-a-half percent. And it will keep pushing and pushing. The 
laws are being made by single purpose agencies operating 
largely without a budget constraint, and their incentive will 
be to push until the human cry becomes so great, such as from 
the Congress that they back off.
    The second is the very wide delegations that the Congress 
gives in many environmental statutes so that the really tough 
choices are made by the agencies. The specialized agency goes 
back over a century. EPA is a classic example of it. The 
original idea was expertise, and certainly there are many areas 
of pollution control that are highly technical and that 
technicians could handle better than generalist legislators.
    But as the controversies before this committee today 
illustrate, these are not merely technical questions. They are 
highly important political and economic ones, but we have 
gotten ourselves into a situation where the legislator can vote 
for clean air and clean water and leave the hard and 
contentious decision making to the agencies and then criticize 
after the fact. And the agencies will in this situation often 
go too far until they are criticized.
    There are two proposals, as I understand it, before the 
Congress today for general regulatory reform. They are 
addressed to the two problems I have identified. Senator Warner 
is working on a proposal that would put the agencies on a 
budget of the expenditures that their rules force. It is sort 
of a pay-go idea where to issue a new regulation, you would 
have to eliminate some old ones. That is addressed to the 
problem of unbudgeted, off-budget costs. The so-called Reins 
Act, introduced by Congressman Jeff Davis and now introduced in 
the Senate by Senator DeMint, is the proposal for Congress to 
take back some considerable degree of the discretion it has 
delegated to the agencies.
    My testimony says some good things and identifies some 
problems with both approaches. In my view, neither of them 
would be as worthwhile as the Congress's returning to many 
areas of the environmental statutes where it has delegated too 
much and where much more specific standards could resolve some 
of the problems that we are facing today. Thank you, sir.
    [The prepared statement of Mr. DeMuth follows:]

    [GRAPHIC] [TIFF OMITTED] T5773.023
    
    [GRAPHIC] [TIFF OMITTED] T5773.024
    
    [GRAPHIC] [TIFF OMITTED] T5773.025
    
    [GRAPHIC] [TIFF OMITTED] T5773.026
    
    [GRAPHIC] [TIFF OMITTED] T5773.027
    
    [GRAPHIC] [TIFF OMITTED] T5773.028
    
    [GRAPHIC] [TIFF OMITTED] T5773.029
    
    [GRAPHIC] [TIFF OMITTED] T5773.030
    
    [GRAPHIC] [TIFF OMITTED] T5773.031
    
    [GRAPHIC] [TIFF OMITTED] T5773.032
    
    [GRAPHIC] [TIFF OMITTED] T5773.033
    
    [GRAPHIC] [TIFF OMITTED] T5773.034
    
    Mr. Shimkus. Thank you, Mr. DeMuth. Now I would like to 
turn to Ms. Rena Steinzor, president of the Center for 
Progressive Regulations, University of Maryland School of Law. 
Welcome, and you are recognized for 5 minutes.

                   STATEMENT OF RENA STEINZOR

    Ms. Steinzor. Thank you for the opportunity to testify 
today on the mistaken belief that environmental protection 
kills jobs. No matter how many times this fatally flawed 
argument is repeated, empirical evidence supporting the claim 
is scant and not credible. Instead, the evidence shows that 
environmental regulations save lives, preserve irreplaceable 
natural resources, and not incidentally, create jobs.
    In fact, if we pull the camera back and look at the economy 
as a whole, the primary cause of the economic recession and its 
devastating effect on jobs is underregulation, not 
overregulation. Everything from the tarp bailouts to the 
underwater mortgage crisis can be traced back to excessive 
corporate corner-cutting unchecked by an effective regulatory 
system.
    Too often regulatory costs are envisioned as putting money 
in a pile and setting it on fire. Environmental protections 
reduce health care costs, keep families intact and productive, 
let workers stay on the job and preserve resources for future 
generations. Not incidentally, taking the remedial steps that 
they require, especially when capital investments are involved, 
creates jobs. Pollution control equipment must be designed, 
manufactured, and installed. People must be hired to construct 
and operate highly engineered landfills that can safely contain 
hazardous waste and treat sewage and drinking water. Even if we 
restrict the analysis of regulatory impacts to monetary 
investments and do not consider the ethics of preserving life, 
health, and nature, the money that is not spent treating 
cancers, asthma, or neurological disease can be used in other, 
more productive ways.
    Two relevant and closely related examples make this case. 
As Chairman Emeritus Waxman pointed out, regulations 
implementing the Clean Air Act saved 164,300 adult lives in 
2010 and will save 237,000 lives by 2020. Costs of compliance 
in the year 2020 will be $65 billion, but the regulatory 
controls, the benefits of those controls will be $2 trillion.
    As we have gotten better at preventing pollutants from 
going up and out of the stack, we have created other equally 
pressing problems because these pollutants do not vaporize but 
rather fall out of the scrubbers into fly and bottom ash. 
Utilities generate about 145 million tons of coal ash annually, 
more than three times the amount of hazardous chemical waste.
    Half of this ash is dumped in so-called surface 
impoundments which is a euphemism for an unlined pit in the 
ground. The highly toxic heavy metals present in coal include 
arsenic, beryllium, chromium, and lead. Burning coal 
concentrates these contaminants to dangerous levels.
    In the aftermath of a spill in Kingston, Tennessee of one 
billion gallons of sludge, coal ash sludge, when an impoundment 
run by TBA burst, this spill in sheer volume exceeded the Gulf 
oil spill that transfixed us this summer. EPA began a rule 
making to compel the safe disposal of coal ash. Electric 
utilities have made killing this rule a top priority. If 
President Obama succumbs to this pressure or Congress 
intervenes, regulatory benefits of $102 billion over the next 
several decades could be lost.
    If anything, our regulatory system is dangerously weak, and 
Congress should focus on reviving it rather than eroding public 
protections. The destructive convergence of funding shortfalls, 
political attacks, and outmoded legal authority have set the 
stage for ineffective enforcement and unsupervised industry 
self-regulations. From the Deepwater Horizon spill in the Gulf 
of Mexico to the disaster at West Virginia's Big Branch Mine 
with the death toll of 29, the signs of regulatory dysfunction 
abound.
    The latest free-for-all against regulation frames a 
fundamental question for Congress. Will we do what we must to 
make sure that the environment we leave the next generation of 
Americans is clean enough for them to live their lives free of 
the health risks from environmental hazards, or will we squeeze 
the last penny of monetary profit out of the planet's resources 
at the cost of leaving behind a scarred landscape, polluted air 
and water, and enough toxics in the food we eat to pose serious 
risks to our children and their children?
    [The prepared statement of Ms. Steinzor follows:]

    [GRAPHIC] [TIFF OMITTED] T5773.035
    
    [GRAPHIC] [TIFF OMITTED] T5773.036
    
    [GRAPHIC] [TIFF OMITTED] T5773.037
    
    [GRAPHIC] [TIFF OMITTED] T5773.038
    
    [GRAPHIC] [TIFF OMITTED] T5773.039
    
    [GRAPHIC] [TIFF OMITTED] T5773.040
    
    [GRAPHIC] [TIFF OMITTED] T5773.041
    
    [GRAPHIC] [TIFF OMITTED] T5773.042
    
    [GRAPHIC] [TIFF OMITTED] T5773.043
    
    [GRAPHIC] [TIFF OMITTED] T5773.044
    
    [GRAPHIC] [TIFF OMITTED] T5773.045
    
    [GRAPHIC] [TIFF OMITTED] T5773.046
    
    [GRAPHIC] [TIFF OMITTED] T5773.047
    
    [GRAPHIC] [TIFF OMITTED] T5773.048
    
    [GRAPHIC] [TIFF OMITTED] T5773.049
    
    [GRAPHIC] [TIFF OMITTED] T5773.050
    
    [GRAPHIC] [TIFF OMITTED] T5773.051
    
    [GRAPHIC] [TIFF OMITTED] T5773.052
    
    [GRAPHIC] [TIFF OMITTED] T5773.053
    
    [GRAPHIC] [TIFF OMITTED] T5773.054
    
    [GRAPHIC] [TIFF OMITTED] T5773.055
    
    [GRAPHIC] [TIFF OMITTED] T5773.056
    
    [GRAPHIC] [TIFF OMITTED] T5773.057
    
    Mr. Shimkus. Thank you, Ms. Steinzor. Now we will recess 
the hearing to go cast votes. We have three votes. My 
colleagues, I would put on the record that 15 minutes after the 
last vote, we will reconvene. I am not sure how you all figure 
that out, but that is why you have the staff to help you. But 
we will come back 15 minutes after the last vote.
    [Recess.]
    Mr. Shimkus. I would like to call the hearing back. And I 
want to thank my colleagues for coming back expeditiously. That 
was a pretty quick turnaround, and now we will go into the 5-
minute questions. Most members are still making their way back 
or trying to grab a sandwich. So I am sure that a few more will 
show up by the time, but I will recognize myself for 5 minutes.
    First I would like for Dr. Lutter--you cited a breathtaking 
statement by EPA in June 10. In fact, I have it right here 
along with a December statement of EPA analysis. In your 
statement in which you are quoting the EPA when it put out a 
proposed rule for combustion byproducts under the Resource 
Conservation and Recovery Act, the EPA said, and I quote ``the 
regulatory impact analysis for this proposed rule does not 
include either qualitative or quantitative estimates of 
potential effects on economic productivity, economic growth, 
employment, job creation, or international competitiveness.'' 
Do you believe that they--comment on this statement. And do you 
believe they should put that as part of the analysis?
    Mr. Lutter. First of all, I think they should be commended 
for full disclosure, but more importantly, I think they should 
have done more analysis on that. And I think what is 
interesting is exactly with respect to the employment effects, 
that employment is clearly recognized under the executive 
order.
    As Chris DeMuth has pointed out, employment effects are not 
necessarily costs, but it is important, especially in this 
environment, for decision makers to be aware of that and also 
for the public to be aware of employment effects. And I think a 
reasonable economic analysis, especially of a regulation of 
that magnitude, should have taken into account employment 
effects. I am not a specialist in that rule, but that rule is a 
rule of several billion dollars.
    Mr. Shimkus. Thank you. Ms. Harned, in--I don't even know--
my first term or my second term, I worked with NFIB closely to 
get liability relief for small businesses and Superfund 
obligations as being one of the primary responsible parties, 
then went after the smaller guys who weren't really involved 
other than they used municipal landfill, in this case like 
everyone else. But, of course, two industries used it with 
hazardous material, and then they got pulled in.
    It is under your belief that regulations should have an 
analysis of economic impact on jobs, wouldn't you agree?
    Ms. Harned. Yes, and the Superfund example, I think, is a 
good one of that and just also the key that NFIB has seen with 
our members and regulation generally which is when you talk 
about unintended consequences, typically you are talking about 
what happens with the regulation to the members I represent, 
the small business owners I represent. And I don't think when--
I would assume when Superfund was enacted, nobody thought that 
we were going to have members letting us know that they spent 
$43,000 to get them out of litigation that they shouldn't even 
have been in to begin with.
    And so doing that work on the front end can help prevent 
those unintended consequences and can help make sure that small 
business owners have the certainty they need going forward so 
that they can hire.
    Mr. Shimkus. And we may follow up on a whole separate 
Superfund hearing because of the cost of litigation versus the 
cost of recovery. Some of the States do a much better job 
because they are not tied into the morass of litigation.
    Dr. DeMuth, do less expensive environment federal 
regulations necessarily mean less environmental protection?
    Mr. DeMuth. No, it is easy to posit a case where a stricter 
rule will result in less pollution, but we have a lot of cases 
where EPA has found ways to reduce the costs of its regulation 
that have actually increased the effectiveness.
    One example would be the lead phase-down regulations, 
which, in addition to--which accelerated the withdrawal of lead 
additives from the gasoline supply. At the time it put those 
rules in place, it put in place a trading system so that 
gasoline refiners had more refining capacity, could substitute 
lead at a faster rate than those with lesser, and make trades 
among themselves. That has been a pretty well-studied example 
of how we reduced the cost of compliance and greatly 
accelerated the removal of lead from the gasoline supply by 
harnessing market incentives to the EPA rules.
    Mr. Shimkus. And I think my clock got all messed up, so I 
don't know how much time, and I want to be respectful of my 
colleagues. I just want to make sure we put in the record the 
guidelines for preparing economic analysis by the EPA December 
2010, just this statement. I don't want to put the whole--in 
9.2.3.3 Impacts on Employment, I quote ``regulatory-induced 
employment impacts are not in general relevant for a benefit-
cost analysis. For most situation, employment impacts should 
not be included in the formal benefit-cost analysis.'' And I 
think that is part of the reason why we are having this hearing 
because many of us will say it should.
    And then I would like to now--my time has expired. I would 
like to recognize my colleague, Mr. Green from Texas.
    Mr. Green. Thank you, Mr. Chairman. Mr. Lutter, you also 
said that you had worked at OMB.
    Mr. Lutter. Yes, sir.
    Mr. Green. It seems like I recall having dealt with over 
the last many years with agencies and their regulations, that 
oftentimes their regulations are submitted to OMB for whether 
it be cost-benefit analysis or comment before it actually takes 
effect. Is that true?
    Mr. Lutter. That has been the case for many years, yes, 
sir.
    Mr. Green. OK, do you know if OMB does any cost-benefit 
analysis that may be separate from the individual agency?
    Mr. Lutter. Well, historically it doesn't. It offers 
comment on the agency's economic analyses, their benefit-cost 
analyses and other related analyses, all required by the 
Executive Order. Those comments are typically taken seriously 
by the agency that then revises the economic analysis to 
reflect OMB comments. But there is not a separate OMB analysis 
except to improve the analysis of the agency.
    Mr. Green. But there is an analysis. There is an oversight 
of the agency, whether it be EPA or Department of Labor or any 
other agency, that OMB would actually look at their economic 
analysis?
    Mr. Lutter. There is oversight. The magnitude of the 
changes depends on the circumstances.
    Mr. Green. OK, I appreciate that. Thank you. We have heard 
from our Republican colleagues that regulations designed to 
protect the environment and public health may cost too much, 
and they all have been ignored by the other side of the 
equation, and costs are not taking action to protect the 
environment and public health.
    Last year, the Office of Management Budget estimated the 
major federal regulations over the last 10 years costs between 
$43 and $55 billion. Ms. Steinzor, does that cost tell the 
whole story?
    Ms. Steinzor. No, thank you for asking that question. It 
doesn't because it ignores the benefits of regulation, and that 
is a very important part of this equation. Regulation does help 
create jobs because the money is being channeled back into the 
economy. It is not being destroyed. So that is one of the 
reasons why we are emphasizing competitive energy policies that 
will put us ahead in global competition because forcing us to 
stop using polluting materials will be very helpful.
    Mr. Green. OK, I appreciate that. Mr. Lutter, do you agree 
that the balanced discussion of the cost of regulations should 
include a discussion of the benefits too?
    Mr. Lutter. Yes.
    Mr. Green. OK, OMB estimated that the economic benefits of 
major regulations over the last 10 years found tremendous 
benefits up to $616 billion. The benefits oftentimes outweigh 
to cost 3 to 1 and sometimes as much as 12 to 1, but these hard 
numbers don't tell, I think, the human side of the story.
    And I think Mr. DeMuth talked about the reasonableness of 
taking lead out of gasoline, and there was a reasonable 
regulation to be able to trade and to deal with it. I don't 
think any of us would want to go back to what--because there 
are a lot of countries in the world who still have lead in 
their gasoline. But that was probably one that ultimately paid 
off much better.
    And frankly it sounds like from your testimony, it was more 
workable than some of the ones we may see again through lots of 
different administrations.
    Ms. Steinzor, it may be tempting for some to rely on a 
clinical cost estimate to form and justify policy. Do you think 
it makes sense to rely on analytical tools alone, or do we need 
to remain cognizant of the other principles of our society, 
like fairness and justice and equity?
    Ms. Steinzor. Yes, sir, and I actually think that Congress 
did a terrific job on that when it wrote the Clean Air Act and 
the Resource Conversation and Recovery Act and the Safe 
Drinking Water Act and the Toxic Substances Control Act. All of 
those statutes talk about protecting human health and the 
environment with an adequate margin of safety. Those are the 
kind of phrases that you used, and I would just--until you 
change your instructions to the agencies, that is what they are 
going to be following.
    Mr. Green. OK, thank you. One last question in my last 20 
seconds. Typically agency rules, industries have the right to 
go to the courthouse and file, whether it be the NFIB or 
individual affected industries. Don't you think that is also a 
check, and I guess let me ask Ms. Harned if the NFIB actually 
ever filed in court representing a certain part of the industry 
on some regulation you thought was maybe not proper?
    Ms. Harned. Why, we have done that on several occasions 
with EPA, Army Corps of Engineers, and I think a couple of 
other agencies. All of these issues that we were raising were, 
checking the administration for not following Small Business 
Regulatory Enforcement and Fairness Act. The good thing is we 
have that as a tool. The bad news is in the case where we--the 
court agreed with us, the appeals court ultimately agreed with 
us, our members never saw any relief. They just told the 
agency, don't do it again, basically. So the rule never got----
    Mr. Green. Did the agency overrule that--did the court 
overrule the agency?
    Ms. Harned. They did not provide--they did not tell the 
agency to go back and fix the problem. They just said don't do 
it again. So I guess my point is they acknowledged that the 
agency didn't follow its procedures and that that was in 
violation of the law, but they did not go back and fix the 
issue that we were complaining about fundamentally, which was a 
streamline process that had been taken away from small business 
owners for permitting.
    Mr. Shimkus. Gentleman's time has expired. I would just 
weigh in in that there are litigation costs that have to then 
be borne by the small business to even go through that process.
    Mr. Barton. Like to yield 5 minutes to my colleague from 
Kentucky, Mr. Whitfield.
    Mr. Whitfield. Thank you, Mr. Chairman, and thank you all 
very much for your testimony today. One of the things about 
this that bothers me the most is, and some of you touched on in 
your testimony, and that is that Congress does seem to be 
ceding more and more authority to regulatory bodies, 
particularly by writing pieces of legislation that are very 
vague. And it lends itself to interpretations by the way that 
people want to interpret it.
    An example of that, I think Mr. DeMuth pointed this out in 
his testimony, was on the Tarp legislation. We thought they 
were going to be buying toxic assets with some of these public 
funds. Instead, they were making equity investments in 
financial firms, and so I am assuming that most of you would 
agree with me that Congress may be ceding too much authority to 
regulatory bodies. Would you agree with that, Mr. Lutter?
    Mr. Lutter. I think it is very helpful for regulatory 
bodies to have fairly precise instructions about what is 
congressional intent. It facilitates a more technical decision 
rather than an unfettered policy one, which is best left with 
elected representatives.
    Mr. Whitfield. What about your, Ms. Harned?
    Ms. Harned. Yes, I think this is a continuing concern, and 
I do agree, the health care law is a good example of this as 
well that we are seeing right now that is impacting our 
members. And it is really the agencies that are going to----
    Mr. Whitfield. Might I also say that we didn't have an 
opportunity to offer one amendment on the floor on that bill. 
Mr. DeMuth, do you have a----
    Mr. DeMuth. Yes, I agree, sir. If you look across the range 
of EPA's organic statutes, I would say that those that have 
been the most contentious and have lead to the greatest 
problems have been those that given them very, very wide 
discretion.
    And the ones that have been most successful, I think the 
classic case is the automobile emissions standards. They were 
basically written on the hill, and they have been very 
effective. There hasn't been that much litigation.
    Mr. Whitfield. Right.
    Mr. DeMuth. Everybody respects them. Congress spoke.
    Mr. Whitfield. Right.
    Mr. DeMuth. And it reflected--I mean they were 
controversial at the time. The automobile manufacturers didn't 
like them, but Congress made a considered decision that this 
was something that was important. And I think that applying 
that approach much more broadly across RICRA, TASKA, the 
Superfund Program, and the Clean Water and Air Acts would be 
very beneficial.
    Mr. Whitfield. What about your, Ms. Steinzor? Do you agree 
with my statement?
    Ms. Steinzor. I agree that the laws should be specific. I 
actually would observe that the environmental laws are pretty 
specific. I worked for the committee many years ago, and we 
rewrote Superfund. And I actually have counted the pages. It 
went from 50 pages to 400 pages. So very, very specific 
instructions.
    Mr. Whitfield. Yes. Well, I think most people certainly in 
my district agree and feel very strongly that they are losing 
jobs because of regulations. We had a plant close last week, 
and they specifically--the owner of the plant said I am closing 
this because of environmental regulations, and 200 jobs were 
lost right there.
    Now, one of the things that I am totally puzzled about is 
we look at these formulas about benefits versus cost, benefits 
versus cost. And, Ms. Steinzor, in your testimony, you talk 
about the benefits, for example, of the Clean Air Act. By 2020, 
the benefits will be $2 trillion annually. Now, Mr. DeMuth, you 
and Mr. Ginsberg wrote a law journal article one time at the 
University of Michigan in which you looked at formulas used to 
determine benefits, cost-benefit analysis, and you were, I 
believe, critical of some of these formulas being used. Would 
you explain briefly why? I mean it is so frustrating when 
somebody says the benefit is too--I mean you say that a life 
lost would be $84,000 or whatever. Could you just comment 
briefly on the formulas used to calculate these benefits?
    Mr. DeMuth. I think that the approaches to calculating 
benefits have become more specific over time and better, but 
that they involve enormously large room for subjective 
judgment.
    Professor Steinzor and also Administrative Jackson last 
week cited a figure of 650,000 lives saved per year from EPA 
regulations. I regard that as preposterous, intellectually 
embarrassing. They think it is reasonable. What they do is they 
take the amount of pollution in America in 1970, and they take 
GDP in 1970 and they take GDP today, and they multiple it by 
the pollution in 1970. Now, we probably would be saving that 
many lives, but you know what? We wouldn't be able to see each 
other if pollution had increased that much. And then they take 
credit for all of the difference.
    So you can see a lot of very poor procedures, and this is 
the administrative EPA talking before an important 
congressional committee. So you can see that the opportunity 
for exaggeration is still immense.
    Mr. Shimkus. The gentleman's time has expired. The ranking 
member asked if we could allow Ms. Steinzor to, because some of 
her testimony was questioned, a brief response. So I am going 
to ask unanimous consent that we allow Ms. Steinzor to respond 
for a minute. Without objection. Ms. Steinzor.
    Ms. Steinzor. Thank you. The estimates of benefits that are 
made under things like the Clean Air Act and other statutes are 
very low because we assume, for example, that if a child is 
brought to an emergency room with an asthma attack, that that 
attack is worth $363. I don't even think they let you through 
the door or give you a plastic ID bracelet for $363. And the 
cost of a nonfatal heart attack in a person under the age of 24 
is $83,000. So unless you actually die of your heart attack, 
that is all the amount of money we think it is worth to prevent 
having you exposed to air pollution that can make your heart 
disease worse or give you--worsen your asthma.
    So these benefits--I would disagree with Mr. DeMuth. These 
benefits are likely to be much, much higher than what EPA says 
they are.
    Mr. Shimkus. And thank you, ma'am. Now, I would like to 
recognize Congressman Joe Pitts from Pittsville for 5 minutes. 
Pennsylvania.
    Mr. Pitts. Thank you, Mr. Chairman. Mr. DeMuth, in your 
written testimony, you state ``on the cost side, these include 
higher prices, the loss of many good things outside the realms 
of environmental quality and employment such as the quality and 
reliability of some products and services.''
    Could you please give us some examples of quality and 
reliability losses? And does this affect the ability of 
businesses to access capital to either comply with more 
burdensome requirements or to simultaneously comply and hire--
expand their businesses?
    Mr. DeMuth. The costs could certainly take the form of 
those you suggest. I had in mind more kind of direct and 
obvious things. Sometimes installing pollution control gear 
simply raises cost. Sometimes it lowers the utility of a 
product. The hardware that we use to control pollution on cars 
degrades the performance of the car. We have all gotten used to 
it, and pollution has gone down enormously. But the performance 
of cars in terms of miles per gallon is less than it would have 
been otherwise.
    A good example for people in the Washington area, 
especially those that have experienced power outages in the 
past couple of weeks, is the reliability of our power system. 
The Clean Air Act through--I mean people on the staff will--who 
are down in the weeds will understand this. The Clean Air Act 
discourages plant modernization in the electric power business 
because of a curious anomaly in the Act where if you try to--
you may have a lot of good reasons for renovating your plant. 
If you renovate the plant, it will reduce pollution and make 
the power supply much more reliable. But you will trip yourself 
into so much more stringent regulations.
    And so power companies tend to defer and delay, and EPA has 
been trying to fix this for 20 years. It is something that I 
would recommend to legislators to fix. It hasn't been able to 
do it, and I think that the effect on keeping our power grid up 
to date through keeping the generating facilities up to date 
has been very substantial.
    Mr. Pitts. Thank you. Ms. Harned, you say that small 
businesses spend 36 percent more per employee to comply with 
environmental regulations than larger businesses, while small 
businesses provide two-thirds of the new jobs. Does this mean 
that the Small Business Regulatory Enforcement and Fairness Act 
simply does not work?
    Ms. Harned. Well, it works when it is followed again the 
letter and the spirit of it. What we have noticed is when the 
Act was first introduced, there was more of blatant 
noncompliance, I think, than you would find today 20 years 
later, though that still occurs. I think what you see though is 
ways to do the end run around it, to maybe not certify a rule 
that otherwise would be certified to have a more in-depth small 
business analysis.
    And our view of the world is, look, once these regs are on 
the books, they are on the books. And getting them off has 
proven to be very difficult if not impossible. Why not do your 
homework on the front end and make sure that you use the tools 
that are given to you through the law to solicit small business 
impact and really understand how a law--how a regulation is 
going to work before implementing it? I know it takes time on 
the front end, but it is much better to do it that way than 
have to clean up a mess later like you saw in Superfund and 
other things like that.
    Mr. Pitts. Thank you. Mr. Lutter, finally, do you believe 
that the creation of new enforcement and compliance jobs 
related to the issuance of a new rule should be given 
substantial weight in the net jobs calculation?
    Mr. Lutter. I have concerns about it, net jobs 
calculations, even though I understand its appeal to many 
parties. I have tried to articulate a preference for a 
conventional calculation of benefits being shown to justify 
cost as a basis for issuing a regulation.
    I think, having said that, there is a variety of effects on 
employment that are also legitimate to consider in that 
benefit-cost calculation. And my survey indicates that some 
analyses for some regs are not doing that. I think with respect 
to employment--or, I am sorry, enforcement jobs themselves, if 
there is an enforcement job in the regulatory agency and that 
function is now required to ensure compliance with the rule, 
then that job is a cost of the rule and ought be considered as 
such.
    Similarly, if there is an enforcement compliance officer in 
the regulated industry that now is not otherwise hired and that 
person's sole function is to ensure that they are complying 
with red tape, that is also a cost.
    Mr. Pitts. Thank you.
    Mr. Shimkus. Gentleman's time has expired. The chair now 
recognizes the gentlelady from California, Ms. Capps.
    Ms. Capps. Thank you, Mr. Chairman. I would like to turn to 
Mr. DeMuth. Thank you for the testimony, each of you. Mr. 
DeMuth, your testimony suggests that environmental regulations 
are no longer as cost effective as they once were because the 
marginal benefits have decreased. Essentially you are 
suggesting we have kind of already largely solved the problem 
of pollution. I wish that were true. The Centers for Disease 
Control has found that chemical exposures in this country are 
everywhere, and we see the public health impacts of those 
exposures.
    According to the CDC, 90 percent of people tested have BPA 
in their bodies. Nearly every person tested had toxic fire 
retardants in their blood, and autism rates are rising at an 
alarming pace. California, for example, where we have a lot of 
pollution, autism rates have grown sevenfold in recent years.
    Last year, the president's cancer panel released a report 
focused on the link between environmental exposures and cancer. 
As they noted in 2009, one-and-a-half million Americans were 
diagnosed with cancer and 562,000 died from the disease. The 
panel concluded that reform of the Toxic Substances Control Act 
is--and they laid quotes around this--``critically needed.''
    Mr. DeMuth, are these experts and scientists wrong to say 
that we need to be doing more to address environmental 
exposures to harmful chemicals?
    Mr. DeMuth. I don't think they are wrong, and I don't think 
you are wrong. And I am sorry that--I think you may have 
misinterpreted what I said. I said that I thought that EPA 
regulations were becoming less cost effective over time. I 
didn't say there was no pollution left. I didn't say there was 
nothing left to do.
    To take your CDC case, one of the pollutants, toxic 
pollutants people have been most concerned about has been 
mercury. The CDC measures of mercury, for example, women 15 to 
40, their conventional categories, the measured amounts have 
been below their reference rates since about 2000 and----
    Ms. Capps. I don't want to cut you off, but I want to move 
on because I have other questions. But we will agree----
    Mr. DeMuth. If you look at mercury regulations that EPA is 
dealing with, the amount of additional mercury being subtracted 
is extraordinarily small at high costs, and that compares----
    Ms. Capps. Well, that is not the same with every kind of 
chemical though, but I----
    Mr. DeMuth. No, that is an example of what I had----
    Ms. Capps. That is what you were driving at?
    Mr. DeMuth. Yes.
    Ms. Capps. OK, but you do agree that we need to do more, we 
need to be doing more to address environmental exposures----
    Mr. DeMuth. Of course.
    Mrs. Capps [continuing]. To harmful chemicals. Do you agree 
that we should reform TSKA, for example?
    Mr. DeMuth. I think that would be highly worthwhile.
    Ms. Capps. OK, so I can see that----
    Mr. DeMuth. We might, you know, I am not--what I would want 
to do with the Act, you know, I am not sure, and I don't know 
what the various proposals are.
    Ms. Capps. Let me turn then to Ms. Steinzor, and I 
appreciate very much----
    Mr. DeMuth. OK.
    Mrs. Capps [continuing]. Your answering my question.
    Mr. DeMuth. Thank you.
    Ms. Capps. Ms. Steinzor, what do you think? Do you think we 
need to be doing more to address environmental exposures to 
harmful chemicals?
    Ms. Steinzor. Yes, we need to be doing a lot more, and to 
use your example of the Toxic Substances Control Act, we have--
many people don't realize this, but we don't test chemicals 
before they are put on the market in this country and----
    Ms. Capps. You wait and see what happens.
    Ms. Steinzor. We wait and see what happens, and people are 
basically human guinea pigs when that goes on. And a very big 
need to revise TSKA in that way.
    Ms. Capps. Well, some of my colleagues, we hear a lot from 
them about the failures of the current regulatory system. They 
suggest that the failure is a result of staffers at the 
agencies running amok. I don't think that is the case, but 
instead of pointing fingers at staffers in agencies, there 
might be some other reasons. What are some of the examples that 
you would give to why we are not continuing in the path the way 
we should?
    Ms. Steinzor. The agencies are drastically underfunded. EPA 
hasn't had a raise in constant dollars in its funding since 
1984, and you have passed a series of laws thousands of pages 
long since that time that give them all sorts of new 
responsibilities. And they just simply can't keep up with the 
very important mandates that Congress has given them.
    Ms. Capps. I appreciate that. You know, Mr. Chairman, I 
wish we lived in a world where EPA had worked itself out of a 
job. Someday perhaps we will be able to do that, but cancer 
patients and parents of autistic children nationwide know that 
we are not there yet. Scientists nationwide know that to 
achieve the goal of getting rid of pollution, we are going to 
need to strengthen the Environmental Protection Agency's 
authority, not take away essential EPA tools. And with that, I 
will yield back.
    Mr. Shimkus. I thank the gentlelady, and I would like to 
yield to the gentleman, Congressman Bass, for 5 minutes.
    Mr. Bass. Thank you very much, Mr. Chairman, and I am most 
apologetic for coming in late. If there are any questions that 
have already been addressed, you just say so, and I can take a 
look at it in the record. I have two questions. Dr. Lutter, you 
make a good case in your testimony that analysis of regulatory 
action should indicate that the action will have clear net 
benefits and no, if you will, unnecessary, underlined, burdens. 
And you argue that this discipline will promote public 
understanding and accountability for legislators.
    Will the result of that kind of policy be fewer regulations 
or better regulations in your opinion, fewer new regulations?
    Mr. Lutter. Thank you. I think it is--the result will be an 
improvement in regulation, which would be measured both by the 
quantity and the quality. I think of this really as analysis 
has two functions to perform.
    One is it has a function to let the regulators at the 
regulatory agency and the White House know about the intended 
effects so that they know when they are regulating what are the 
best estimates available to them about the consequences of 
their regulatory decision, surely for public health and safety, 
also for cost. But especially in this constrained environment, 
on unemployment. I think that is something that is fair for 
them to be informed of.
    But also with respect to public accountability. I think 
then the question is is there information being given to 
Congress and to the public about what the government knows 
about the consequences of its regulatory decisions and provided 
that the analysis is carefully done to meet credible standards. 
And I think the public accountability function can be helped by 
more credible analysis of regs.
    Mr. Bass. All right, Dr. DeMuth, do you think that the 
Administrative Procedures Act and regulatory reviews are being 
used in assessing the true needs and appropriate burdens for 
federal regulations and making appropriate adjustments when 
required?
    Mr. DeMuth. Congressman, I am afraid I don't have a very 
helpful answer to that. The Administrative Procedure Act 
basically requires the agencies to make decisions that comport 
with the statutes and to follow certain procedures for notice 
and comment. And then it has a fallback saying that decisions 
can't be arbitrary or capricious. I think that is basically a 
pretty good structure.
    There is a lot of talk in Washington these days about the 
quite surprising growth in the use of a technique called 
interim final rules. A lot of agency rules in the past year, I 
think because the agencies are swamped in part because Congress 
gave them a lot of new business to do in some big statutes last 
year, and they are resulting to interim final where they just 
announce what they are going to do. There is no notice and 
comment at all.
    That was intended as sort of an emergency procedure where 
here is our interim final, but now we are going to have a rule-
making proceeding. But in a lot of cases, it appears that the 
interim final rules are really going to be the final final 
rules. So that, I think, suggests some problems with the APA 
that might be addressed.
    Mr. Bass. Do you think that there was any significant 
discretion on the part of the agencies in the amount of rule 
making, understanding that the Congress may have burdened them 
with new requirements, but could they have taken a different 
route that might have resulted in a lighter regulatory burden?
    Mr. DeMuth. Yes, sir. That is a pervasive effect, a 
pervasive phenomenon. There are lots of statutes in the 
environmental area and many others as well that give the 
agencies very, very wide discretion in making hard tradeoffs 
between various goods and the single purpose agency, whether it 
is the EPA or the FDA or whatever, is always going to favor the 
goods that you all in Congress instructed it to promote. That 
is its job, but when you give it a lot of discretion, you can 
expect the agency to push and sometimes go too far.
    Mr. Bass. Thank you, Mr. Chairman.
    Mr. Shimkus. I thank the gentleman. The chair now 
recognizes the gentleman from Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Thank you, Mr. Chairman. Appreciate the time and 
thanks to our panelists for being with us today. A lot of 
questions and just kind of get a little background of where I 
am coming from. I represent the largest manufacturing district 
in the State of Ohio, 2\1/2\ years ago was the ninth largest in 
Congress. And I am not going to tell you where we are today and 
what has happened.
    But, you know, no one out there in my district or across 
Ohio or across this country doesn't want to say that we don't 
want clean air or clean water. But, you know, if I could start 
with Mr. DeMuth, going back to page three of your testimony, 
which I found interesting. Again you are talking about your 
percentages that are out there and where things have gone. And 
you were talking about the '70s and the '80s. You said in both 
cases, the single-purpose agency having achieved say a 90 
percent reduction in risk or pollution will then wish to tackle 
another 8 percent and then on.
    And so, I would just like to start with that because I have 
communities in my district that draw water from--we have a lot 
of rivers. But EPA standards are getting to such a point that 
the parent companies of these plants that are located in these 
communities are saying if your cost goes up anymore, we are 
going to pull you. And so I found your testimony interesting 
because that is going on in our area right now.
    And I just wandered if you could comment on what you have 
seen also nationally.
    Mr. DeMuth. What did you say I could comment on?
    Mr. Latta. If you--nationally. If you could comment on 
that, if you have seen other statistics nationally on that.
    Mr. DeMuth. I wish I could be more helpful. I mean there 
are a lot of--there is a lot of evidence such as the kind that 
you cite. When I was working on these matters in the 
government, I would see a lot of them. I think that there are 
many EPA rules that are very sensible and well crafted, but the 
general tendency is to push much too hard.
    And it is a--one of the best things that has been written 
on the subject is by Justice Breyer of the Supreme Court when 
he was an academic. He wrote a book called ``Squaring the 
Vicious Circle'' and he pointed out that single purpose expert 
agencies, without a budget on compliance costs, will try to go 
all the way to 100 percent. And as the costs get higher and 
higher, you get more cases such as those in your district. And 
they will essentially push until they get somebody pushing 
back, which is what is happening today.
    Mr. Latta. Thank you. Pardon me. Ms. Harned, Ms. Steinzor 
said a little bit ago that regulations create jobs. Do you 
agree with that?
    Ms. Harned. That has not been the experience of our 
members. They consistently cite regulations as one of the 
reasons, over the last 26 months, in fact, one of the top three 
reasons they are not hiring in this economy.
    Mr. Latta. Let me ask you this. Have you heard of any of 
your other NFIB members out there have situations like this? 
Again when I am home, I go through maybe two to three to four 
plants a day, and they are either very small or very large. But 
I was in one place. It was kind of disconcerting because the 
gentleman said that, after I heard him talking about some 
situation here with the EPA, I said well what was it that the 
EPA said when you talked to them? He said well, here is the 
problem. He said he told him that if he had to implement all 
these regulations, that they are going to put him out of 
business. And the comment back to him from the regulator was we 
don't care.
    Ms. Harned. Right, and I feel like that is very much the 
sense that we get from our members, from the regulators, and 
also the concern that it is--they are always--the concern that 
it is a gotcha mentality on enforcement and that you really 
can't win. If they come in your place of business, there is so 
much on the books, they are bound to find something. And that 
really is not what helps public health and safety anyway. You 
want be having more of a partnership approach.
    This worked really well, truthfully, and the last probably 
9 years with OSHA where they were really working with small 
business owners to help them understand their obligations. 
Compliance assistance was very much a focus at that agency from 
2000 to 2008, and as a result, you saw injuries go down. I mean 
we have proof to show that you can get positive benefits for 
the public by having more of a cooperative approach with the 
regulators instead of a gotcha mentality.
    Mr. Latta. Thank you. And, Mr. Lutter, on page 7 of your 
testimony, I found something also interesting because I tell 
you with my district, I see it all the time. You cited a study 
from a Michael Greenstone. He is now with MIT talking about the 
question of comparing counties that were and were not in 
attainment under the Clean Air Act. And I know of a situation 
in my district where contiguous counties to a larger county 
were all placed on a nonattainment because of the one county 
being just--artificial line is how they drew it, and everybody 
fell into it, even though the other counties were not in the 
situation of being nonattainment.
    But I know that you say on page eight then, of your 
testimony, that these estimates probably overstate the national 
loss of activity due to nonattainment designations. But I can 
see that jobs are being moved because of this nonattainment. 
And just wondered if you could comment again on that.
    Mr. Lutter. Well, this is actually a very interesting study 
that you cite precisely because it is one of the most careful, 
comprehensive, authoritative. Its ``Journal of Political 
Economy'' reviews of what in many ways is a cornerstone of the 
Clean Air Act. And though that has been extensively studied, 
one question is just, retrospectively, if you look at the 
nonattainment versus the attainment counties, what does it do? 
And the answer is you get these large adverse effects on 
employment in the nonattainment counties.
    The author, quite appropriately, says, well, there is this 
risk of a certain amount of shifting of jobs to the attainment 
counties, which could be interpreted as the result of two 
things. One is the regulations are less onerous there, and the 
other one, of course, is the air quality is better so maybe 
people are moving for that reason as well.
    What I think is interesting is the extent to which that 
analysis may speak to current dilemmas because, as I pointed 
out, one of the regulations that I looked at is also the Ozone 
National Ambient Air Quality Standard, and that has been 
repeatedly--I know it is not within the jurisdiction of this 
committee, but it has been repeatedly revised. And it is 
interesting how, as an illustration, as Chris DeMuth pointed, 
it points to more and more increasingly stringent options being 
considered and adopted by the regulatory agency even at the 
detriment of cost and compliance costs.
    Mr. Latta. Thank you, Mr. Chairman. Yield back.
    Mr. Shimkus. The gentleman's time has expired. Chair 
recognizes the gentleman from Mississippi, Mr. Harper, for 5 
minutes.
    Mr. Harper. Thank you, Mr. Chairman, and I appreciate each 
of you being here and shedding some light on this. And I can 
only tell you that I can't find a business or an industry in my 
district that thinks that they are under-regulated. And so we 
have to deal with those issues on a regular basis, and trying 
to find that proper balance is something that I hope we can do 
in this Congress.
    And the question I would have for you, Mr. DeMuth, is are 
you concerned about proposing the use of performance standards, 
that you are actually encouraging the Federal Government to 
dictate the means of production or investment in manufacturing 
in this country?
    Mr. DeMuth. A performance standard, in my understanding, is 
a standard that says this is the amount of pollution we are 
going to permit. And I generally think that that is superior to 
a technology standard that says this is the way you are going 
to manufacture tires or this is, you know. So in general, I 
think that performance standards involve less dictation to 
businesses about how they will meet pollution obligations and 
have more flexibility.
    There are cases where I think that the advantages of 
performance standards outweigh this, but in many, many more 
cases than we permit today, I would think that moving to 
performance standards would be a step in the right direction.
    Mr. Harper. When you are looking at the environment 
standards or statutes that are in place, what comes to the top 
of your list of what most needs to be reformed? If you had to 
identify a couple that you think are definitely in need.
    Mr. DeMuth. I would say in the jurisdiction of this 
committee, the RIKRA and Superfund statutes, I think that they 
have produced some good--RIKRA has definitely produced some 
good things. Together, I think they have been woefully 
inefficient. I think probably the worst environmental statute 
is outside of your jurisdiction, and that is the National 
Ambient Air Quality Standards portion of the Clean Air Act with 
all of the State implementation plans.
    There is an enormous amount of waste and inefficiency 
simply in the administration of this program. And if you 
compare it to automobile pollution standards, what Congress has 
done directly in the acid rain and ozone standards, where we 
had Congress itself making a decision, reflecting the consensus 
of our representatives as to what the standard was going to be 
and how fast we were going to pursue it, I think those have 
been much more effective.
    And if you go back to 1970, you can see why people were 
interested in this State implementation plan approach, but it 
has become a bureaucratic quagmire, and it is not doing 
anything good for the economy or the environment. It could be 
doing much more.
    Mr. Harper. And I would love to have your take on how you 
view the large federal deficits and amount of federal spending, 
what impact you are seeing that have in your view on businesses 
in this country.
    Mr. DeMuth. I think that it is a powerful suppressant to 
business investment because it creates the idea that our 
national government itself will be at risk, that our borrowing 
will be downgraded. These are things that a lot of 
businesspeople take seriously, and it leaves them, like 
consumers, wondering about our future and making them much less 
likely to make large capital investments.
    Mr. Harper. Thank you. Yield back.
    Mr. Shimkus. Gentleman yields back his time. The chair 
recognizes the gentleman from Louisiana, Mr. Cassidy, for 5 
minutes.
    Mr. Cassidy. Ms. Steinzor, am I pronouncing that correctly? 
I came in late.
    Ms. Steinzor. Yes.
    Mr. Cassidy. You know a heck of a lot more than I do about 
this, and I am actually going to explore the theoretical, which 
is not under our jurisdiction. I am going to speak about Clean 
Air Act, but I am just interested in picking your brain because 
I kind of agree with these folks. So I learn, if you will, from 
you whom I may agree or disagree.
    Clearly the elephant in the room of our economy is whether 
or not CO<INF>2</INF> and greenhouse gases are going to be 
regulated. An incredible concern in my district from Baton 
Rouge, Louisiana. Lots of people with good jobs and good 
benefits are employed in these industries.
    As I read about the cap-and-trade bill, one thing that they 
said was almost inevitable, there would be carbon leakage. 
People would just move their carbon-intensive enterprises to 
another country, losing the jobs, just shipping the jobs 
overseas but still emitting the greenhouse gas.
    Just accepting for the sake of argument that this is a 
concern, you know, and then I think I recently saw a big steel 
plant out of Spain who relocated, just shut down. When I asked 
why, they said well, heck, they just sold their credits. It was 
easier for them to move their carbon intensive or energy 
intensive enterprise elsewhere than to put up with the 
regulations. And I am thinking as I look at Spain's fiscal 
mess, wow, maybe this contributed to the fiscal mess.
    So in the theoretical, where a regulation or a regulatory 
environment comes in and says thou shalt, and the easiest way 
to comply is to say adios and to move down to some place where 
they speak Spanish or Chinese or you name it, regulation 
doesn't kill jobs in that regard? You follow what I am saying? 
I mean it just seems like there is this exodus of jobs related 
to this sort of regulation.
    So again it is not under our jurisdiction, but I figured 
that could be the basis of, if you will, a theoretical 
conversation.
    Ms. Steinzor. I would point to perhaps the most devastating 
event in your State, which would be the Deepwater Horizon 
spill.
    Mr. Cassidy. Now, if I may, I think you point out correctly 
that the problems there is not the absence of regulation but a 
dysfunctional regulatory environment. And I would also point 
out that ongoing, we have a job moratorium now because they 
can't, although with resources, they can't pull their 
regulatory environment together. So a lot of people who depend 
upon these jobs for their mortgages can't get work.
    I am sorry. That just touches a button in me because I know 
so many families that are connected by this kind of heavy hand 
of government destroying their ability to work and support 
their families. I am sorry. Continue.
    Ms. Steinzor. Well, I have a lot of compassion for those 
people too, and I would suggest to you that the entity that 
cost them the jobs was British Petroleum in cooperation with 
Transocean and Halliburton.
    Mr. Cassidy. Now, that is to imply though that the other 
actors out there, Chevron, Exxon, Mobile, you name it, are 
doing the same sort of bad behavior as BP. There is no evidence 
for that. Indeed the National Academy of Engineers said that 
the problems of the Macando Well were identifiable and fixable 
and that the moratorium would not appreciably increase safety. 
So we have thousands of people out of work because one bad 
actor is--that is being ascribed to everybody else.
    Ms. Steinzor. Well, I think the moratorium was lifted, but 
I think what my point was, and the oil spill commission 
certainly concluded this, that there are systemic problems 
throughout the whole industry, but if we were to just look at 
British Petroleum in isolation, it had profits of $19 and $17 
billion.
    Mr. Cassidy. I am not putting--now, believe me, we can 
agree. I knew we would have common ground. We can put BP on the 
dock, and we are going to both be in agreement. My concern 
isn't about----
    Ms. Steinzor. But that is----
    Mr. Cassidy. Yes, BP as a bad actor, about the fact that 
good actors are now being penalized because the regulatory 
environment can't--and people are losing jobs. I mean job--they 
got rigs moving to the coast of Africa with the jobs that go 
with it. Because the regulatory will not get off bottom center 
to allow good actors to again begin to work.
    Now, to me that just seems a total kind of tyranny of the 
regulator.
    Ms. Steinzor. Well, again we have 55 inspectors in the Gulf 
of Mexico to inspect 3,500 oil rigs and production platforms. 
So I am not going to lay a bet that there won't be another 
spill, but if we look at countries that don't have any 
regulation, they do pay an incredible price. I mean there is an 
article in the British medical journal ``The Lancet''----
    Mr. Cassidy. I am not at all--excuse me. Just because I 
have limited time. I am not saying don't regulate. I am just 
saying the tyranny of the regulator right now who always shifts 
it so that you can never quite get your permit. And the people 
who depend upon those jobs don't have their jobs with the 
salary and the benefits.
    Ms. Steinzor. I guess what I am trying to say is that I 
don't think those 55 inspectors are feeling particularly 
tyrannical and that the big economic cost to Louisiana was 
unregulated industry that really was careless, negligent, was 
making outrageous profits and squandered the economic and 
natural health of the whole Louisiana coast.
    Mr. Cassidy. If I may say, I would say it was not--it was a 
single actor, BP. If I may finish. It was a single actor called 
BP, and again as according to the president's own handpicked 
council of engineers, this was not a--the problems were fixable 
and definite. And lastly, it is not the 55 frankly. It is 
Brownwich and Salazar. So at some point, they become the 
translator of someone who decides to otherwise squash an 
industry. Thank you.
    Mr. Shimkus. The gentleman's time has expired. We want to 
thank the first panel for their testimony. You may get 
questions in writing from members as a follow-up. We would ask 
if you do, to respond, and we do appreciate your testimony. 
Since I had to start this thing so quick so we could get done, 
the way this hearing was set up was to talk to the economists 
big picture. Second panel deals with case studies from 
individuals. So that is how this was set up, and we appreciate 
you coming.
    And now we will ask for the second panel to be seated. We 
would like to thank the second panel for joining us. Because I 
have time, I will introduce you all at one time, and then we 
will start from my right to left for the 5-minute testimonies.
    Joining us on the second panel will be Leonard F. Hopkins, 
fuel procurement and reliance manager from Southern Illinois 
Power Cooperative, serves portions of my congressional 
district, which I said in my opening statement. And we are 
happy to have you here.
    Mr. Joseph Baird is a partner in Baird Hanson Limited 
Liability Partnership. Ms. Marcie Kinter, vice-president, 
Government and Business Information, Specialty Graphic Imaging 
Association. We have--not in order--Wendy K. Neu, executive 
vice-president, Hugo Neu Corporation, and chairperson of We 
Recycle. And last but not least the Honorable Vince Ryan, 
Harris County attorney.
    Welcome, and we will start with Mr. Hopkins with your 5-
minute testimony. Again your entire testimony will be submitted 
for the record. Executive summary within the 5 minutes as close 
as possible. And welcome.

STATEMENT OF LEONARD F. HOPKINS, FUEL PROCUREMENT AND RELIANCE 
  MANAGER, SOUTHERN ILLINOIS POWER COOPERATIVE; JOSEPH BAIRD, 
 PARTNER, BAIRD HANSON LLP; MARCIA Y. KINTER, VICE PRESIDENT, 
 GOVERNMENT & BUSINESS INFORMATION, SPECIALTY GRAPHIC IMAGING 
  ASSOCIATION; WENDY NEU, EXECUTIVE VICE PRESIDENT, HUGO NEU 
 CORPORATION; AND VINCE RYAN, COUNTY ATTORNEY, HARRIS COUNTY, 
                             TEXAS

                STATEMENT OF LEONARD F. HOPKINS

    Mr. Hopkins. Thank you very much. Good afternoon. My name 
is Leonard Hopkins, as stated, and I serve as the fuel and 
compliance manager for Southern Illinois Power Cooperative. I 
am honored to have the privilege to appear before you today.
    Southern Illinois Power is generation and transmission 
cooperative serving approximately 250,000 people and businesses 
located in the southern-most counties of Illinois. We are a 
not-for-profit corporation and are owned directly by our 
members. SIPC operates one power generation station south of 
Marion, Illinois which utilizes two coal-fired boilers to 
generate power for its members.
    When each of these boilers was built, they were equipped 
with state-of-the-art pollution control equipment that would 
allow them to burn Illinois bituminous coal and meet all 
environmental regulations. We continue to comply with such 
regulations today.
    The coal combustion residue regulation being proposed by 
EPA poses a serious threat, excuse me, to the economic survival 
of the cooperative for which I work. My comments will focus on 
the effects EPA's decision could have on Southern Illinois 
Power. I believe these comments also reflect the sentiments of 
many of our nation's electric cooperatives. Southern Illinois 
Power Cooperative has been utilizing its coal combustion 
byproducts in beneficial ways for over 20 years. Roof shingle 
sand, abrasive products, mine reclamation, cement, and 
fertilizer blends are all example of ways our coal combustion 
residues are recycled into beneficial products for society.
    Southern Illinois Power is concerned that placing the label 
of hazardous on coal combustion residue will place the same 
stigma on all coal combustion byproducts and effectively end 
the possibility of recycling such materials. In the litigious 
society of today, manufacturers and end users will flee from 
any recycled product that is remotely related to hazardous 
waste. Such an action would remove these recycled products from 
the marketplace, and the recovery of replacement materials 
would require increased emissions of carbon dioxide and other 
pollutants.
    Further, small virtually unavoidable spills of ash at power 
plants could be considered illegal disposal of hazardous 
material and could cause the plant to be in a constant state of 
noncompliance. Shipments to hazardous waste landfills in the 
country could increase tenfold as such hazardous waste 
landfills might be completely filled in only 2 years. The 
barriers to compliance associated with such an action could 
conceivably drive coal-fired power generators like Southern 
Illinois Power out of business.
    Southern Illinois Power Cooperative is a small generation 
and transmission system and defined as a small business by the 
U.S. Small Business Administration. By regulation, cooperatives 
are not allowed to maintain large capital reserves.
    When the cost of running our business suddenly increases 
like it would under the subtitle C option, we must go directly 
to our lenders. There is no cash cushion to mitigate these 
increases, and the cost of new loans would be shared by each 
co-op member owner in the form of higher electricity rates. 
SIPC conservatively estimates the subtitle C option would cost 
its members a minimum of an additional $11 million per year, 
which is about 25 percent of our current annual fuel budget, 
and we serve an area of the State that has up to 15 percent 
unemployment.
    In cases where businesses like SIPC are affected, EPA is 
obliged to pursue the least costly approach in order to 
mitigate impacts on facilities that can least afford them. 
Moreover, Congress made clear in enacting the Bevel Amendment, 
under which this decision is being made, that EPA should avoid 
the subtitle C option if at all possible.
    Under the subtitle D option, EPA can promulgate federal 
regulations specifically designed for CCR disposal units. These 
regulations would be directly enforceable by the States and the 
public under RIKRA citizen supervision, and violators would be 
subject to significant civil penalties. Excuse me. EPA would 
also retain its imminent and substantial endangerment authority 
to take action against any CCR units that pose risk to human 
health or the environment.
    The D prime option would enable EPA to establish an 
environmentally protected program without crippling CCR 
beneficial use and imposing unnecessary costs on power plants, 
threatening jobs and increasing electricity costs.
    In conclusion, Southern Illinois Power agrees with many 
others who are already on record as opposing the subtitle C 
approach. This list includes a bipartisan group of 165 House 
members and 45 U.S. senators in the 111th Congress, virtually 
all the States, other federal agencies, municipal and local 
governments, CCR marketers and beneficial users, unions, and 
many other third parties who have maintained that regulating 
CCRs under RIKRA's hazardous waste program is simply regulatory 
overkill and would cripple the CCR beneficial use industry.
    We respectfully suggest there is no reason to pursue this 
approach when the subtitle D prime option offers the same 
degree of protection without the attendant risks and burdens of 
subtitle C.
    Thank you again for the opportunity to express the views of 
a small cooperative regarding a proposed regulation that will 
have lasting effects on the lives and livelihoods of our 
members. Thank you.
    [The prepared statement of Mr. Hopkins follows:]

    [GRAPHIC] [TIFF OMITTED] T5773.058
    
    [GRAPHIC] [TIFF OMITTED] T5773.059
    
    [GRAPHIC] [TIFF OMITTED] T5773.060
    
    [GRAPHIC] [TIFF OMITTED] T5773.061
    
    [GRAPHIC] [TIFF OMITTED] T5773.062
    
    [GRAPHIC] [TIFF OMITTED] T5773.063
    
    [GRAPHIC] [TIFF OMITTED] T5773.064
    
    [GRAPHIC] [TIFF OMITTED] T5773.065
    
    [GRAPHIC] [TIFF OMITTED] T5773.066
    
    [GRAPHIC] [TIFF OMITTED] T5773.067
    
    [GRAPHIC] [TIFF OMITTED] T5773.068
    
    [GRAPHIC] [TIFF OMITTED] T5773.069
    
    [GRAPHIC] [TIFF OMITTED] T5773.070
    
    [GRAPHIC] [TIFF OMITTED] T5773.071
    
    [GRAPHIC] [TIFF OMITTED] T5773.072
    
    [GRAPHIC] [TIFF OMITTED] T5773.073
    
    [GRAPHIC] [TIFF OMITTED] T5773.074
    
    [GRAPHIC] [TIFF OMITTED] T5773.075
    
    [GRAPHIC] [TIFF OMITTED] T5773.076
    
    [GRAPHIC] [TIFF OMITTED] T5773.077
    
    [GRAPHIC] [TIFF OMITTED] T5773.078
    
    [GRAPHIC] [TIFF OMITTED] T5773.079
    
    [GRAPHIC] [TIFF OMITTED] T5773.080
    
    [GRAPHIC] [TIFF OMITTED] T5773.081
    
    [GRAPHIC] [TIFF OMITTED] T5773.082
    
    [GRAPHIC] [TIFF OMITTED] T5773.083
    
    [GRAPHIC] [TIFF OMITTED] T5773.084
    
    [GRAPHIC] [TIFF OMITTED] T5773.085
    
    [GRAPHIC] [TIFF OMITTED] T5773.086
    
    [GRAPHIC] [TIFF OMITTED] T5773.087
    
    [GRAPHIC] [TIFF OMITTED] T5773.088
    
    [GRAPHIC] [TIFF OMITTED] T5773.089
    
    [GRAPHIC] [TIFF OMITTED] T5773.090
    
    [GRAPHIC] [TIFF OMITTED] T5773.091
    
    [GRAPHIC] [TIFF OMITTED] T5773.092
    
    [GRAPHIC] [TIFF OMITTED] T5773.093
    
    [GRAPHIC] [TIFF OMITTED] T5773.094
    
    [GRAPHIC] [TIFF OMITTED] T5773.095
    
    [GRAPHIC] [TIFF OMITTED] T5773.096
    
    [GRAPHIC] [TIFF OMITTED] T5773.097
    
    [GRAPHIC] [TIFF OMITTED] T5773.098
    
    [GRAPHIC] [TIFF OMITTED] T5773.099
    
    [GRAPHIC] [TIFF OMITTED] T5773.100
    
    [GRAPHIC] [TIFF OMITTED] T5773.101
    
    [GRAPHIC] [TIFF OMITTED] T5773.102
    
    [GRAPHIC] [TIFF OMITTED] T5773.103
    
    [GRAPHIC] [TIFF OMITTED] T5773.104
    
    [GRAPHIC] [TIFF OMITTED] T5773.105
    
    Mr. Shimkus. Thank you, Mr. Hopkins, and I recognize Mr. 
Baird for 5 minutes. Let us get your microphone set.

                   STATEMENT OF JOSEPH BAIRD

    Mr. Baird. That will help. I am Joe Baird, a partner in 
Baird Hanson Williams, a mineral resource firm in Boise, Idaho. 
I am also president of the Northwest Mining Association. Today 
I am representing the Idaho Cobalt Project of the Formation 
Capital Corporation, U.S.
    But the problem we now seek to address is not unique to 
formation. It is a problem for any mining company operating or 
hoping to operate on federal lands. And by showing up here 
today, we were hoping to alert the Congress and the executive 
branch to a developing duplication of--a true duplication of 
environmental regulatory burdens that are already managed by 
longstanding programs of the BLM and the Forest Service 
governing exactly the same subject matter and covering the same 
technical issues as an EPA regulatory initiative.
    Now, just quickly on the Cobalt Project, it is a project 
that is at the end of permitting, and it is--it will consist of 
an underground mine and a floatation mill that uses simple 
physical separation of ore from country rock, eliminating the 
need to use aggressive chemicals for the milling.
    The project footprint is only about 135 acres, and it is 
located within a traditional cobalt mining district. And to the 
extent possible, the project will backfill workings with 
cemented paste tailings and development rock and use dry stack 
tailings for surface storage to eliminate the need for a 
tailings bond. Project will produce about 185 direct jobs, $8.2 
million in annual payroll, $8.8 million in taxes annually for a 
minimum of 10 years and will importantly be the only source of 
super alloy cobalt in the U.S. Super alloy grade cobalt is a 
critical component of all jet engines and many green 
applications including hybrid cars, solar cells, and wind 
turbines.
    Currently all U.S. needs are met by importation primarily 
from a single foreign company. Formation is very proud of the 
fact that the Forest Service approval of the final environment 
impact statement has not been challenged. We have written our 
verbal understandings with the Shoshone Bannock Nations, the 
Nez Perce Nation, the Idaho Conservation League, Boulder White 
Clouds Council, Earth Works, and Western Mining Action Project. 
We were and are grateful for those constructive discussions.
    Yet even with all of these favorable attributes, the 
project took 7 years to permit, and that is simply too long. 
Today, we are not even going to try to deal with those 
permitting issues, but we are trying to head off something 
coming at us or coming at the industry as a whole.
    For decades, mines on federal lands have been subject to 
strict, site-specific reclamation financial assurance 
requirements of the Forest Service or the BLM. The Cobalt 
Project is on land managed by the Forest Service, but EPA is 
developing its own financial assurance requirements for all 
hard rock mines, including those already subject to financial 
assurances of the BLM and the Forest Service.
    If EPA proceeds as they are currently planning, it would 
end up causing financial assurances to be bonded, to be cash 
bonded actually, beyond what the Forest Service or the BLM 
determines is actually needed to protect the environment. The 
debt capital requirement would unnecessarily force termination 
of many existing mines, jobs, public and private revenue 
streams, and hamper creation of new mines supplying strategic 
and base metals and materials necessary to sustain U.S. 
manufacturing jobs.
    Implicit in EPA's position is that Forest Service BLM 
programs are managed so incompetently that as a class mines on 
Forest Service or BLM lands constitute a degree and duration of 
risk that EPA must--that causes EPA to must duplicate the long 
established Forest Service and BLM programs.
    Yet in 1999, the National Research Council of the National 
Academy of Science as responding to Congress found that 
existing Forest Service BLM framework to be ``generally 
effective in protecting the environment'' and more importantly 
even for this purpose that ``improvements in the implementation 
of existing regulations prevent the greatest opportunity for 
improving environmental protection,'' meaning that let us work 
with the existing structure as opposed to creating whole new 
programs out there.
    So just to wrap up, the Idaho cobalt project and many other 
mines existing in future are critical to the survival and the 
revival of the U.S. manufacturing sector, which depends on 
mining products as feed stock. Mining and manufacturing produce 
some of the best paid jobs and best tax revenue streams in the 
entire economy.
    Permitting of hard rock mines in the U.S. is already a long 
and costly process particularly when compared to our business 
competitors in the world. So please don't force us to do the 
same thing twice with two different departments and end up 
having to pay reclamation bonds twice over. Thank you very much 
for your time.
    [The prepared statement of Mr. Baird follows:]

    [GRAPHIC] [TIFF OMITTED] T5773.106
    
    [GRAPHIC] [TIFF OMITTED] T5773.107
    
    [GRAPHIC] [TIFF OMITTED] T5773.108
    
    [GRAPHIC] [TIFF OMITTED] T5773.109
    
    [GRAPHIC] [TIFF OMITTED] T5773.110
    
    [GRAPHIC] [TIFF OMITTED] T5773.111
    
    [GRAPHIC] [TIFF OMITTED] T5773.112
    
    [GRAPHIC] [TIFF OMITTED] T5773.113
    
    [GRAPHIC] [TIFF OMITTED] T5773.114
    
    [GRAPHIC] [TIFF OMITTED] T5773.115
    
    [GRAPHIC] [TIFF OMITTED] T5773.116
    
    Mr. Shimkus. Thank you, Mr. Baird. Now I would like to 
recognize Ms. Kinter for 5 minutes.

                 STATEMENT OF MARCIA Y. KINTER

    Ms. Kinter. Thank you. Good afternoon. My name is Marci 
Kinter, and I am the vice president of Government and Business 
Information for the Specialty Graphic Imaging Association, or 
SGIA.
    Thank you for the opportunity to address you this afternoon 
regarding a timely industry concern. Specifically I am here 
today to address a misguided interpretation of the byproducts 
exemption included in the Toxic Substance Control Act's 
inventory update law. This proposed interpretation offered by 
the EPA Office of Chemical Safety and Pollution Prevention will 
impose a significant reporting burden on the struggling U.S. 
manufacturing sector, without providing additional health, 
safety, or environment benefit beyond that already provided 
under existing EPA and OSHA regulations.
    It is vital that you remind EPA of congressional intent to 
exempt most byproducts from the reporting requirements under 
the TSKA inventory update rule or IUR. Your interest in this 
matter is timely as the rule that I am here to discuss is 
currently undergoing interagency review.
    SGIA represents the interests of those facilities that 
produce a wide array of products using either the screen 
printing or digital imaging print platform. Products such as 
all types of signage, the membrane switch on your microwave 
oven, the defrost pattern on your car's rear window to--and we 
are most known for our message on our T-shirts that we provide 
to everyone when you are wearing them. That is the industry 
sector that I represent.
    Currently there are over 25,000 screen and digital printing 
facilities operating in the U.S. And the screen and digital 
print community is comprised of small businesses. The average 
facility size ranges from 50 to 40 employees. As you know, the 
cost of regulatory compliance poses a significantly higher 
burden on the small business community.
    The TSKA inventory update rule requires the reporting of 
extensive data concerning the manufacturing, processing, and 
use of chemical substances. I am not here today to discuss the 
benefits or burdens of the entire TSKA inventory update rule. 
Instead, I would like to focus on a specific aspect, EPA's 
misinterpretation of the byproduct exemption under the proposed 
amendments to the IUR.
    In the proposed rule, EPA's misguided interpretation says 
that waste byproducts generated during the manufacturing of 
items, like these T-shirts, are new chemicals if the 
manufacturer does the right thing by sending these waste 
byproducts by recycling rather than disposing of them. To say 
we were shocked to discover that the proposed TSKA IUR would 
have an actual regulatory impact was surprising as we are 
printers and not chemical manufacturers.
    While we use chemicals, including inks and solvents, we 
certainly do not consider ourselves to be chemical 
manufacturers. At the end of the day, the final product that 
moves out the door is the printed product, such as this T-
shirt, not a chemical product. Under EPA's interpretation, 
sending our waste byproducts, such as spent solvents and inks 
for recycling, would be considered by EPA to be the 
manufacturing of a new chemical for commercial purposes, 
subjecting us to registration reporting of our waste byproducts 
under TSKA.
    Our companies are already regulated by both OSHA for worker 
exposures as well as U.S. EPA for proper handling and disposal. 
EPA's misguided interpretation will not only affect those 
facilities represented by SGIA. Manufacturers of all sorts will 
now be burdened by reporting their waste byproducts as new 
chemicals.
    Every manufacturing sector that has opted to send their 
waste byproducts out of recycling rather than disposal will be 
saddled with this recording keeping and recording burden. There 
is still time to take action, but we need your help. We believe 
that the interpretation offered by the U.S. EPA regarding the 
reporting of byproducts is not what Congress intended. The 
waste byproducts offered by the U.S. product manufacturing 
community are already regulated by U.S. EPA, and the proposal 
would only increase the regulator burden with no discernable 
environmental benefit.
    Thank you again for the opportunity to appear before you 
today, and I would be happy to answer any questions you might 
have on this critical industry topic.
    [The prepared statement of Ms. Kinter follows:]

    [GRAPHIC] [TIFF OMITTED] T5773.117
    
    [GRAPHIC] [TIFF OMITTED] T5773.118
    
    [GRAPHIC] [TIFF OMITTED] T5773.119
    
    [GRAPHIC] [TIFF OMITTED] T5773.120
    
    [GRAPHIC] [TIFF OMITTED] T5773.121
    
    Mr. Shimkus. Thank you, Ms. Kinter, and before I move to 
Ms. Neu, I was asked by the ranking member, and so without 
objection, I would like to recognize him for a minute to do an 
introduction of the two Democrat-sponsored witness.
    Mr. Green. Thank you, Mr. Chairman. I will be brief. I 
mainly want to thank both Ms. Neu and Mr. Ryan on short notice 
for coming here to provide your expertise on the side of what 
sometimes is good about recycling requirements. So but again, 
thank you all on short notice. I was telling the chairman I 
know how much it costs to fly from Houston to D.C. and 
hopefully you got a better rate than I did. So on short notice 
but welcome.
    Mr. Shimkus. I too want to welcome you also, and now I 
recognize Ms. Neu for 5 minutes.

                     STATEMENT OF WENDY NEU

    Ms. Neu. Good afternoon. My name is Wendy Neu. I am an 
owner and executive vice president of Hugo Neu Corporation. We 
are a diversified U.S.-based company that has owned and managed 
industrial and commercial business assets in excess of $500 
million. As well, we have employed up to 1,100 workers at a 
time in a business that has had export sales in excess of $2 
billion in a single year.
    As an executive of a mid-sized business with hundreds of 
millions of dollars at stake in industrial and commercial 
business assets, it is clear to me that from my industry, 
regulations promulgated and enforced by the EPA have been and 
remain essential to the growth, diversification and 
sustainability of recycling operations, both for the company 
and for its employees.
    Let me provide you with an example of how strong EPA 
regulations would allow Hugo Neu to more successfully compete 
globally. It is a policy approach that would level the playing 
field for American business in a way that creates U.S. jobs. 
Also, it removes the disadvantages my business now suffers from 
in competing with companies that don't meet environmental 
standards and choose to export toxic e-waste to developing 
countries.
    It ought not to go unnoticed that the GAO itself has 
suggested current regulations regarding e-waste are woefully 
narrow in scope. One of the industrial operations we own 
focuses on recycling of used and obsolete post-consumer and 
commercial electronic equipment, which is commonly referred to 
as e-waste. The name of our company which processes this e-
waste is We Recycle. It is based in Mount Vernon, New York. 
Like communities throughout our Nation, Mount Vernon, with a 
population of approximately 38,000 people is desperate for jobs 
with living wage. I am proud to report that my company does pay 
a living wage.
    The employees who work at our company are focused on 
repairing or otherwise recycling e-waste. The technology we 
have developed allows us to recover high value clean streams of 
commodities. These commodities are then sold to the best 
industrial consumers domestically or are exported to industrial 
consumers around the world.
    But Hugo Neu Corporation could be doing more, recycling 
more and hiring more workers if we did not have to compete 
against the low-road actors in our industry. Unfortunately, 
inadequate and insufficient regulation by the EPA are stifling 
the growth of my environmentally responsible business and 
cutting off a potential for job growth.
    Jobs that could be developed at e-waste recycling 
businesses around the country such as mine are now being 
exported to China, southeast Asia, and countries in Africa, 
precisely because the EPA does not effectively limit the export 
of hazardous electronic waste by unscrupulous collectors in the 
United States.
    Every single country in the OECD, other than the United 
States, limits the export of e-waste to these countries. They 
wisely preserve jobs in their countries and limit the spread of 
toxic waste. If other industrialized countries can do it to 
create an advantage for their businesses and their workers, 
then it seems to me that the U.S. Congress ought to do no less 
for American workers and American business.
    I cannot overstate the reality that to cut EPA funding will 
hurt our business. It is the existence of current EPA 
regulatory guidance, such as that which now discourages the 
dumping of at least some e-waste in landfills that has helped 
our business to grow.
    EPA regulations add economic value to our investment 
because we are a recognized, environmentally responsible 
company adhering to high standards and known to be well 
managed.
    Our business customers have confidence in our ability to 
recycle e-waste responsibly. Of course, as I said earlier, much 
more can and should be done. Indeed, this point was made in a 
September 17, 2008 Government Accountability Office Report 
which said this ``EPA could amend RIKRA regulations to cover 
exports of used electronics where risks exist to human health 
or the environment when reclaimed for reuse or recycling,'' an 
action that, if implemented, could bring U.S. export controls 
more in line with those of other industrialized countries.
    The current limited and, in my view, inadequate approach by 
the EPA needs to be replaced with regulations that will level 
the playing field for responsible recyclers like my company. A 
failure by Congress to do so is a choice, from the perspective 
of my business, to favor a policy that curbs jobs growth, 
stifles business expansion, and tilts the playing field in a 
way that advantages low-road recyclers and costs American jobs. 
Thank you.
    [The prepared statement of Ms. Neu follows:]

    [GRAPHIC] [TIFF OMITTED] T5773.122
    
    [GRAPHIC] [TIFF OMITTED] T5773.123
    
    [GRAPHIC] [TIFF OMITTED] T5773.124
    
    [GRAPHIC] [TIFF OMITTED] T5773.125
    
    [GRAPHIC] [TIFF OMITTED] T5773.126
    
    [GRAPHIC] [TIFF OMITTED] T5773.127
    
    Mr. Shimkus. Thank you. Now, I would like to recognize the 
Honorable Mr. Ryan from--the attorney from the county in Texas, 
and you are recognized for 5 minutes.

                    STATEMENT OF VINCE RYAN

    Mr. Ryan. Thank you very much.
    Mr. Shimkus. Inspect your microphone for me. There is a 
button at the bottom of it.
    Mr. Ryan. Now it is even greener. Well, that is very 
appropriate, isn't it? Goes from a very light green to a green 
green. And may I say again thank you very much for allowing me 
to appear today and talk about a success story working with the 
EPA.
    I am Vince Ryan, the Harris County attorney. Harris County, 
Texas is the third most populous county in the U.S. and home to 
the Nation's largest petrochemical complex and the port of 
Houston, which is ranked first in the U.S. in foreign, water-
borne tonnage. With a strong industrial base, Harris County has 
fared better than some of the region of the U.S. in these 
economic hard times. With property taxes declining, which is 
the basic revenue source for local governments in Texas. Our 
local government of Harris County also faces a significant 
budgetary shortfall, yet we understand that providing healthy 
communities in which our residents can work and strive towards 
a better quality of life with cleaner air and water quality 
remain a high priority.
    Let me add, I have been county attorney since January 1 of 
2009, but before that, I was a Houston City council member. 
Before that, I was an assistant county attorney, actually the 
first assistant in that office. So my experience spans almost 
30 years dealing with these issues in Harris County and for 
Harris County. I am here today in my capacity as the elected 
county attorney, but also representing Harris County government 
as spoken through the commissioner's court, which is the 
governing body generally of Harris County government.
    And we are sincerely grateful for the work the EPA and EPA 
region six are doing to end the severe contamination of 
Galveston Bay, San Sell Bay, and waterways leading to both by 
the San Jacinto dioxin waste pits. And we urge the EPA, with 
congressional support, to continue using appropriate and 
forceful measures where necessary to achieve effective 
solutions for this site and quite frankly similar sites 
throughout not just Texas, but the United States. And we urge 
this committee and Congress to support these efforts.
    A little bit of history. Congressmember Green and 
congressmember Ted Poe who I have known since he was an 
assistant district attorney and when he was a district judge in 
Harris County. Both asked the EPA to look into this matter and 
take it under consideration. On March 19, 2008, the San Jacinto 
River waste pits Superfund site was listed on the national 
priorities list. The site with waste ponds and surface 
impoundments built in the 1960s for the disposal of pulp and 
paper mill waste is located in a marsh partially submerged on 
the western bank of the San Jacinto River in Harris County, 
Texas immediately north of Interstate Highway 10 and a bridge 
over the San Jacinto River.
    High dioxin concentrations have been documented at the 
site. Sediment water and fish and crab tissue samples collected 
in the surrounding areas have also been found to have highly 
elevated levels of dioxin. According to the EPA and our own 
verification, exposures to dioxin can cause a number of adverse 
health effects in humans, including cancer, skin disorders, 
severe reproductive and developmental problems, and damage to 
the immune and hormonal systems.
    May I add this bay area is much like the Chesapeake Bay 
here that each and every member and their staffs are familiar 
with. It is surrounded by populated areas, and the day that I 
first visited after taking office this site, Terry O'Rourke, my 
first assistant, who is sitting back of me, and I were with 
some other people. They were working people on a day off with 
their families fishing while the kids were swimming within feet 
of the emanating dioxins from this site that had been used for 
years as a dumping ground in public waters for these types of 
waste within minutes, I might add, even though there were signs 
saying don't swim, signs saying don't fish, people were doing 
it there.
    The EPA identified two responsible parties: International 
Paper Company and McGuiness Industrial Maintenance Corporation, 
a subsidiary of Waste Management. Now, this other side of the 
story we have heard quite a bit today this afternoon. These are 
two major corporate citizens with significant resources, and I 
am sure every member and staff member here, I was--quite 
frankly, when I first got involved with this specific issue, we 
looked at the EPA and saw this snakelike structure of process 
to get to clean up a site that for years had been known by the 
public and these two corporate responsible parties of polluting 
and poisoning people throughout that area.
    I am a native Houstonian, grew up in the area. I have been 
with people fishing all through this area. I never knew of it 
until in 2009, I had taken office, and we were approached with 
this.
    Harris County government has also become very involved. We, 
of course, in Texas have a very divided government at the 
county level, much like the federal level with different 
elected employment officials. But first we all have come 
together to say we have got to help the EPA as they try to 
solve this problem as quickly as possible.
    With unique abilities, Harris County has really been active 
in environmental issues since about 1953 and have accelerated 
over the time. Again understanding that the industry, the 
petrochemical industry is a vital part of our economic 
centrality to really the economy of the United States and to a 
great extent the world based upon the economies that we have.
    Luckily, under even the Superfund's law and working with 
the EPA, soon there was a critical component which required 
work to begin. This again EPA working with these corporate 
responsible parties and to be completed within a short 
timeframe. Here the actual agreed order of consent was signed 
on May 2010, and the design choice was outlined.
    Mr. Shimkus. You are already a minute and a half over time. 
So you can wrap it up.
    Mr. Ryan. Let me just say things are moving, but they are 
moving more slowly than we would like. The EPA has been very 
aggressive on this, and we log them and urge your support on 
areas, especially where clear definition of responsibility is 
apparent.
    [The prepared statement of Mr. Ryan follows:]

    [GRAPHIC] [TIFF OMITTED] T5773.128
    
    [GRAPHIC] [TIFF OMITTED] T5773.129
    
    [GRAPHIC] [TIFF OMITTED] T5773.130
    
    [GRAPHIC] [TIFF OMITTED] T5773.131
    
    Mr. Shimkus. I thank you. I now will recognize myself for 5 
minutes for questions. I am going to go pretty quick because 
there is a lot I want to put on the table. So again thank you 
all for coming.
    And first of all, I want to put on the record we are not 
here debating to eliminate the EPA or stop the work when there 
is toxicity and there is damage to human health. That obviously 
is not the proposal. The whole purpose of the hearing is: can 
we be smart and make sure the rules are important enough in 
protecting human health while we are protecting jobs? And this 
new Congress has a focus on job creation.
    So with that, I don't have a piece of Illinois bituminous 
coal. I do have one in my office. That didn't get brought down. 
Mr. Hopkins, why is that important that you burn Illinois 
bituminous coal?
    Mr. Hopkins. Well, I am from an area----
    Mr. Shimkus. Quickly now. Quickly.
    Mr. Hopkins [continuing]. That mines Illinois coal, so we 
serve our members by using their product to create electricity 
for them.
    Mr. Shimkus. The coal found in Illinois is what type of 
coal?
    Mr. Hopkins. It is Illinois bituminous coal.
    Mr. Shimkus. So a co-op is different, and really co-ops 
should be, my friends on the other side, these are agencies 
that you ought to love because you are not-for-profit. Is that 
correct?
    Mr. Hopkins. That is correct.
    Mr. Shimkus. Your board members are highly salaried. Is 
that right?
    Mr. Hopkins. Our board members are poorly paid.
    Mr. Shimkus. Poorly paid, volunteers. Just smally 
compensated. And the owners of the co-op are?
    Mr. Hopkins. The owners of the cooperatives are their 
members that they serve.
    Mr. Shimkus. So every time we do something that may affect 
a regulatory burden, as you said in your testimony, say there 
is a new capital expansion, you cannot carry a large capital 
fund for future expansions. You have to go where?
    Mr. Hopkins. We have to go out and look for a loan for the 
money, and we go to our rate payers, our member owners to pay 
that bill for that loan.
    Mr. Shimkus. OK, and I will just hold this up. The same 
picture. They have seen that at least 6 years. These are 
Illinois coal miners.
    Mr. Hopkins. Illinois coal miners.
    Mr. Shimkus. Mining bituminous coal, and because of many 
companies didn't do--you did it out of complying with the needs 
to create electricity for your members, but also protect coal 
miners' jobs. But you did the capital expense to a scrubber, 
correct?
    Mr. Hopkins. That is correct. We installed a scrubber in 
1978.
    Mr. Shimkus. And the companies that did not do scrubbers, 
guess what they did to these miners. They fired them. OK, that 
is the effect of regulations, and we want to applaud you for 
doing the right thing. Let me--I want to hold us this. You know 
what this is, Mr. Hopkins? Can you see this?
    Mr. Hopkins. Looks like a clean slate or a blank piece of 
paper.
    Mr. Shimkus. No, actually it is----
    Mr. Hopkins. Wall board. I am sorry.
    Mr. Shimkus. And what is in the middle?
    Mr. Hopkins. That would be calcium sulfate or gypsum.
    Mr. Shimkus. And where do we get gypsum from?
    Mr. Hopkins. You need to get it naturally from the ground, 
or you can get it from a FGD on a coal-fired power plant, which 
we produce 95 percent pure gypsum.
    Mr. Shimkus. Would this be part of the coal ash debate?
    Mr. Hopkins. It is.
    Mr. Shimkus. And this is found in everybody's home?
    Mr. Hopkins. Yes, sir.
    Mr. Shimkus. The particle boards for most people or the 
wall boards for most people that have been accused of being 
toxic came from where?
    Mr. Hopkins. Most of them came from overseas.
    Mr. Shimkus. Came from China. So in this debate, if the EPA 
is successful in regulating coal ash as a toxic, will you be 
able to sell gypsum to the person who produces the wall board?
    Mr. Hopkins. We are concerned that the homeowner would not 
be interested in buying any product that would remotely be 
related to hazardous waste.
    Mr. Shimkus. And so then the homebuilders would have to get 
a different product? OK, my time is brief. I want to go to Mr. 
Baird. Duplicate regulation, the administration is trying to 
send signals that they want to be smart on regulatory so they 
don't duplicate. Aren't you in a Catch-22 on duplication of 
regulations?
    Mr. Baird. Yes, sir.
    Mr. Shimkus. The Forest Service and EPA?
    Mr. Baird. Yes, sir.
    Mr. Shimkus. How many jobs would this cobalt mine create?
    Mr. Baird. It will create directly 185 jobs.
    Mr. Shimkus. What is the employment rate of the surrounding 
area?
    Mr. Baird. Well, the two counties that would benefit have 
just over 12 percent for Lemhi and just over 14 percent for 
Shoshone.
    Mr. Shimkus. What would be the tax benefit to the area, 
just the local property tax?
    Mr. Baird. Annual? Well, it is not just the property tax, 
but the number for all taxes----
    Mr. Shimkus. OK, the income tax and the employment.
    Mr. Baird [continuing]. Is $8.8 million per year.
    Mr. Shimkus. And what is cobalt used for?
    Mr. Baird. It is used for many high technology purposes, 
but the biggest single one is for jet engines.
    Mr. Shimkus. Is it also used in what people would define as 
green manufacturing?
    Mr. Baird. It is critical to the Toyota Prius battery. It 
is also critical for wind power.
    Mr. Shimkus. Where do we get cobalt right now?
    Mr. Baird. Right now, the bulk of the super alloy cobalt, 
because there are two different types, comes from one plant in 
Norway.
    Mr. Shimkus. Overseas. We import the product. And I am 
going to take the prerogative of the chair just to make the 
point for Ms. Kinter because you are a printer.
    Ms. Kinter. Yes.
    Mr. Shimkus. You use ink.
    Ms. Kinter. Yes.
    Mr. Shimkus. If you take that ink to a recycler, you fall 
under TASKA and have to file additional paperwork. Is that 
correct?
    Ms. Kinter. Correct, sir.
    Mr. Shimkus. Which is pretty burdensome for a small 
business.
    Ms. Kinter. Yes, sir.
    Mr. Shimkus. OK, I wish I had more time. I don't. I will 
yield 5 minutes to the ranking member from Texas.
    Mr. Green. Thank you, Mr. Chairman. I am going to try to 
move quickly too. Mr. Hopkins, I have been a co-op member, and 
it started under FDR to bring power to very rural areas, and 
that is where so many in Texas get our power because, you know, 
a for-profit company can't make any money out there because it 
is so large, but I appreciate it.
    It sounds like you give a great example. EPA could have 
regulated, and I assume, in response to what happened in 
Tennessee with the coal ash, this is EPA's solution. But they 
could have gone under Title D instead of Title C.
    Mr. Hopkins. That is correct, sir. The option for either is 
in their regulations.
    Mr. Green. Obviously you have a problem, and I would sit 
down with your members of Congress, because I know that is what 
I would do with my industry. And like I said, I believe in co-
ops. They are really a good program. I sold the property, so I 
am not a member anymore. But it was really a good system where 
you could get it.
    Mr. Baird, again you have almost the same situation. The 
Forest Service leased you the land, and they gave you your 
insurance requirements, or the--and now EPA is adding to your 
requirements.
    Mr. Baird. That is essentially correct, actually by direct 
duplication. They are going to be causing, or at least they are 
looking at right now--this is not out yet, but they are looking 
at putting together hard rock mine financial assurances that 
will apply to all mines, even if you are already regulated and 
bonded with the Forest Service or the BLM.
    Mr. Green. Well, it sounds like this Congress and maybe 
previous Congress should have said, OK, we have all these 
federal agencies. You ought to just speak with one voice, and 
you ought to get your act together before you put it on the 
private sector, and that makes sense. That doesn't mean we 
don't need regulations because I also understand what our 
country, because we know rare earth and precious metals, we 
need to mine them in our own country.
    Mr. Baird. Yes, sir.
    Mr. Green. We shouldn't--Norway is a great place to visit, 
and I would rather import something from Norway than China, but 
so much of the other rare earth we get from China, and we need 
to develop that. So I think there is a solution to that one.
    Ms. Minter--I have to admit--I am sorry, Kinter.
    Ms. Kinter. That is OK.
    Mr. Green. In an earlier life, I managed a printing 
company. We printed a daily newspaper, and I agree that under 
OSHA because our problem was is that we finished cleaning our 
plates we would recycle the solvent. And it ought to be the 
same regulation under EPA that you would do for OSHA. It would 
seem like it would because that solvent though is a hazardous 
chemical, and in my experience from literally the '60s through 
1990, when I left there, we had problems with some of the 
printers actually dumping it out in the street or in the--and 
there was a way that you needed to track it, whether it be 
through OSHA or through EPA.
    Ms. Kinter. Correct, and I will say, sir, that the U.S. 
EPA's hazardous waste regulations do a marvelous job of 
requiring our companies to manifest our hazardous waste as it 
goes out the door. So the waste is definitely being tracked, 
but through our efforts when we are trying to encourage the 
printers to use either low-level hazardous waste or even non-
hazardous products to reduce worker exposure. These are the 
products that are going to get caught in the Catch-22 and look 
toward duplicative reporting because these are the chemicals 
that are being sent offsite for recycling or even disposed of 
as liquid nonhazardous waste correctly that are now going to be 
considered new chemicals and then subject to even more 
reporting under----
    Mr. Green. And that is where I agree with you. Once it is a 
byproduct of your production.
    Ms. Kinter. Correct.
    Mr. Green. And once you send it to an approved recycler, 
that should take care of it.
    Ms. Kinter. Correct.
    Mr. Green. And so I think there are things that we could 
probably do on at least the three cases that have come up that 
I think is reasonable, and that is why I am glad you are here, 
because that is our job is to make the Federal Government work. 
And granted it is a tough job every day, and it is 24/7, but I 
agree with you.
    Ms. Kinter. Thank you.
    Mr. Green. Let me go to Ms. Neu. You have been--as you 
know, I have been working on legislation now a number of years 
to set federal regulations for electronic waste. How is your 
business affected by the lack of a federal e-waste regulation? 
Because I assume you work in a number of other states.
    Ms. Neu. We actually work in New York and Connecticut at 
the moment but are planning to expand hopefully into the middle 
region of the country. The fact that much, probably close to 80 
percent is what is estimated of e-waste is exported to 
developing countries. So in that regard, we are competing with 
brokers, dealers, who are literally just filling a container up 
with electronic waste, no processing, no segregation of 
materials, and shipping it overseas for recycling. So that is 
one of our challenges.
    Mr. Green. I only have a few seconds left.
    Ms. Neu. Sure.
    Mr. Green. And I think you made the case that we need some 
type of national standard instead of state-by-state----
    Ms. Neu. Exactly.
    Mr. Green [continuing]. Both for industry but also to make 
the recycling efficient.
    Ms. Neu. Right.
    Mr. Green. Mr. Ryan, I hate to call you Mr. Ryan. We have 
known each other for so many years. Vince, one, I appreciate 
what you have done, and I was frustrated, and I think Ted Poe 
and I were both frustrated originally with EPA. But now we are 
seeing some progress, and I don't think it would have happened 
without an elected official and a local community providing a 
lot of the information that you were that actually helped our 
regional EPA office.
    So there is a reason to have EPA, and sometimes we--it 
actually will benefit because coming from a very industrial 
area, every industry along the channel is getting blamed for 
the high dioxin level in the water, but we couldn't find it 
until we found out that, 40 or 50 years ago, that was dumped 
there.
    And we ended up--and so all my other plants were really 
happy because they said we were getting a black eye because of 
what happened before we had an EPA, and so there is good reason 
to have reasonable environmental oversight because it can help 
industry at the same time.
    Mr. Ryan. But I would agree with you that now we have got 
supposed first in the Nation a community awareness program 
going on where we are educating both the industry and the 
public about this particular site, but also the greater issues 
involved. How many other of these sites are--they were known to 
the industry, I might add. It was known it was a pollution site 
but not to the extent that we discovered.
    Mr. Shimkus. The gentleman's time is up. And as Ted Poe 
would say, and that is just the way it is. Well, in this case, 
Congressman Poe would want it changed. Ms. Neu, can you give 
the Committee a credible universally accepted source? You keep 
quoting the 80 percent of export? And if you could--not right 
now, but if you would follow up with the committee so we can 
figure out----
    Ms. Neu. Absolutely.
    Mr. Shimkus [continuing]. And do analysis on that. Now, I 
would like to recognize Mr. Gardner for 5 minutes from 
Colorado.
    Mr. Gardner. Thank you, Mr. Chairman. My district in 
Colorado represents an area that is energy rich, a lot of 
agriculture opportunities, clean energy opportunities. We have 
it all. We have wind power. We have oil and gas development. We 
have solar companies doing great things.
    It is interesting to see, over the past several years, 
farmers on the Eastern Plains who used to have people that 
would come by and collect their used oil and pay them to 
collect their used oil so that they could recycle it. And now 
the farmer themselves are paying to have somebody, the same 
person, now the farmer is paying to have them collect it. So 
they used to receive money for their spent oil. Now they are 
paying to have somebody pick up their spent oil, and in a lot 
of areas, it is because of increasing regulations.
    But as you have heard from so many people on the committee, 
regulations aren't a bad thing if they are done right and done 
with a common sense point of view. And so hearing from many of 
you talk today, a quick question for Ms. Kinter. Your 
testimony, you talk a lot about--you talk about reporting 
requirements in your testimony, and your members are already 
required to file reports for chemicals they have onsite under 
the Toxic Release Inventory. Are they--they are not--are they 
opposed to the reporting requirements?
    Ms. Kinter. No, they are not opposed to reporting 
requirements. What we are opposed to is the duplication of the 
reporting requirements because even under the TRI, they ask us 
to report for recycling.
    Mr. Gardner. So, the information that concerns byproducts 
which is required to report--your members are required to 
report, is that available under other reporting requirements 
under federal law?
    Ms. Kinter. It is already currently available.
    Mr. Gardner. And are you concerned that the proposed IUR's 
compliance timeline--are you concerned about that as it relates 
to your members?
    Ms. Kinter. Certainly. We are looking at a timeline where 
the rule will be going final in May, and the first reporting 
period goes into effect in June of this year for actual 
information from last year. And if you have a group of 
manufacturers that has no idea that they had to even start 
collecting data from last year in order to report for this 
year, you can see that 30 days to put this information in 
place, to really start doing your inventory, and then even to 
look at reporting it over their Internet option, which is the 
only way that they are going to accept reports. EPA will only 
accept reports.
    Mr. Gardner. How much time are your members spending on 
reporting of this kind?
    Ms. Kinter. I would have to hazard a guess that, based on 
all reporting, and I am lumping all the regulatory reporting 
together because they really don't segregate by specific 
statute, you are looking at anywhere from 8 hours a week for a 
small business, and that is including OSHA, and that is TRI 
reporting.
    And I should emphasize it is not just the reporting, but it 
is the record keeping because a lot of these records are 
already kept, or--because they also have to do record keeping 
for their air, for their water, for their waste, for their 
recycling. It is all very, as we know, just media specific. And 
so it is very difficult for them to understand why now I am 
going to tell them that their recycling is no longer recycling.
    It is really a new chemical, and under that, you have to 
gather all this other information. And by the way, if it is a 
new chemical, we may have to consider do you need to develop a 
material safety data sheet to send it offsite because you are 
considered now a chemical in commerce. And this is layer upon 
layer of regulatory burden to a small business whose real goal 
is to produce a T-shirt to put out into the market at the end 
of the day.
    Mr. Gardner. Ms. Neu, are you familiar with some of the e-
recycling programs the various States have?
    Ms. Neu. The legislation that has been passed?
    Mr. Gardner. Right.
    Ms. Neu. Yes, somewhat.
    Mr. Gardner. Is there a State in your opinion that is 
leading the rest?
    Ms. Neu. I think it is hard to say at this point in time 
because the legislation is relatively new. We just passed a law 
in New York which is not being implemented until June. So we 
really haven't seen all the results come in, but I think there 
is some very good legislation out there in many States that 
will increase the volume of e-waste.
    Mr. Gardner. Thank you. Mr. Chairman, I yield back my time.
    Mr. Shimkus. Gentleman yields back his time. Chair now 
recognizes the gentleman from North Carolina, Mr. Butterfield.
    Mr. Butterfield. Thank you, Mr. Chairman. If the chair 
would agree, I would like to yield to the gentleman from New 
Jersey in the interest of his schedule.
    Mr. Shimkus. Without objection, I would be happy to 
recognize the former chairman of the House subcommittee, which 
I served so honorably under as ranking member.
    Mr. Pallone. And your friend.
    Mr. Shimkus. And my friend.
    Mr. Pallone. Well, thank you, and I want to thank my 
colleague from North Carolina for giving me the time and remind 
the chairman that he and I chaired the recycling caucus. Don't 
you still chair?
    Mr. Shimkus. I still do, yes.
    Mr. Pallone. That is what I thought.
    Mr. Shimkus. Do you?
    Mr. Pallone. Yes, I am the Democrat. You didn't know that?
    Mr. Shimkus. We love caucuses here.
    Mr. Pallone. I am sorry. I just wanted to take an 
opportunity--first of all, I wanted to say hello to Wendy Neu, 
who is a long-time friend, and it was really great to have her 
here. I actually--I was actually in my office listening to your 
testimony while I was doing something else, so I did hear what 
you had to say, Wendy, even though I wasn't here. And I 
apologize.
    But what I wanted to mention is that the purpose of this 
hearing today obviously is to, and I appreciate the chairman 
convening it because we are concentrating on the numerous 
benefits to the economy that stem from some of our environment 
regulation, and I think of the Superfund and the Brownfields 
Program.
    I often say, Mr. Chairman, that Brownfields was the only 
legislation in the--and I don't say it in a bad way, but it was 
the only legislation under George Bush, the only environmental 
legislation or new authorized program that actually he was 
supportive of. And I think--I know I was the Democratic 
sponsor, and one of your predecessors was the Republican 
sponsors of the bill. So it was very bipartisan.
    And Wendy, Ms.-- I am going to call her Wendy, has been 
involved over the years in the Brownfields Program as well as 
what you testified about today. So I just wanted to ask you, 
you know, about your company, which I am familiar with, has 
redeveloped several Brownfield sites in New Jersey as well as 
other States. Can you just tell us the impact of that on the 
economy, jobs, what it meant in terms of reuse of those 
properties? Because I am very proud of Brownfields, and I just 
wanted you to comment on it if you would.
    Ms. Neu. Yes, there have been many opportunities as a 
result of the Brownfields legislation, and because we are a 
company that generally exports commodities, we are often 
located in industrial areas and waterfront areas, which are 
very much Brownfield sites, particularly in New Jersey and New 
York.
    So it has been very helpful to us to have these sites to be 
able to position ourselves in strategic locations, which 
otherwise would not be available land for development. So yes, 
that has been--but I also want to thank both of you for being 
such good friends to the recycling community. You have been 
working with us for a very long time, and we really appreciate 
that.
    Mr. Pallone. Well, thank you. You know, it was Paul 
Gilmore.
    Ms. Neu. Yes.
    Mr. Pallone. It was Paul Gilmore and I that sponsored the 
federal Brownfields going back to the early '90s, I think, and 
President Bush had a signing ceremony in Philadelphia that he 
invited us to, and I couldn't go. I remember specifically. I 
wasn't even able to go.
    But if I could just mention, again it has always been very 
bipartisan. It has always been something that we have been able 
to get support from. I think at the time when we started the 
authorization, our former governor, Republican governor 
Christie Whitman was the governor and then was the EPA 
administrator at the time as well.
    And I have just found in my district, Mr. Chairman, in 
particular, but I know it is all over the State and the country 
that what happens is, these old industrial sites are basically 
redeveloped, and then they become new industries or new 
commercial properties that not only are increased ratables and 
tax dollars into the communities, but create a lot of jobs in 
every case.
    And a lot of what has been done has been assessment also, 
and oftentimes they attract private developers that come in and 
also help with the cleanup, so I just wanted to mention that as 
one of the things that I know that you have been involved with 
too.
    You were talking about the Hugo Neu site, the scrap yard, 
right, before?
    Ms. Neu. Yes, recycling facility in Jersey City, yes.
    Mr. Pallone. The recycling facility, all right. Thank you. 
I yield back.
    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the gentleman from Pennsylvania, Mr. Pitts.
    Mr. Pitts. Thank you, Mr. Chairman. Mr. Hopkins, in your 
testimony, you state that you believe your comments also 
reflect the sentiments of many electric cooperatives. If other 
small business cooperatives face similar threats to closing 
their doors, what would taking that many coal-fired generating 
units offline at once mean for the reliability of electric 
service throughout the Nation?
    Mr. Hopkins. Well, certainly I am not an expert on the grid 
as a whole across the Nation, but taking that many coal-fired 
utilities off the grid could lead to shortages and certainly 
would lead to increased price of electricity. In particular, 
for those co-op coal-fired utilities, they would be forced to 
buy power off the grid at these higher prices.
    Mr. Pitts. Now, if you were able to stay in operation, your 
estimates say it would cost members an additional $11 million 
or 25 percent of your annual fuel budget. With such a 
significant increase to your operating budget, how much of that 
cost would be passed on to the users in the form of rate 
increases?
    Mr. Hopkins. All of that money would be passed along to our 
rate payers and our members.
    Mr. Pitts. Mr. Baird, you quoted the president's recent 
executive order in which he said he is firmly committed to 
eliminating excessive and unjustified burdens on small 
businesses and to ensure that regulations are designed with 
careful consideration of their effects.
    In your view, is the regulation that you testified about 
today an excessive and unjustified burden?
    Mr. Baird. Yes, sir, but to be fair to EPA, it is a program 
that is developing. It is not an actual regulation yet, but, 
yes, it would certainly be excessive and burdensome.
    Mr. Pitts. Do you think it was designed with careful 
consideration as to its effects on you?
    Mr. Baird. I do not, sir.
    Mr. Pitts. Are you hopeful that this administration will 
cancel it?
    Mr. Baird. I am. I am actually very hopeful that once there 
is light placed on this and people understand this is truly 
just a duplication of something that is already addressed on 
federal lands, by the BLM or the Forest Service, I think we 
will get this taken care of but the earlier the better.
    Mr. Pitts. Mr. Hopkins, what is your opinion on that? Are 
you hopeful that----
    Mr. Hopkins. That doesn't apply to our business.
    Mr. Pitts. OK.
    Mr. Hopkins. Federal lands.
    Mr. Pitts. What about Ms. Kinter?
    Ms. Kinter. I am sorry. Could you repeat the question 
again?
    Mr. Pitts. Yes, are you hopeful that the administration, 
this administration, will cancel it?
    Ms. Kinter. Yes, very hopeful, sir.
    Mr. Pitts. OK, Ms. Kinter, you believe that this new 
regulatory burden on your small main street printing business 
will not increase environmental protection. Then why, in your 
opinion, is EPA persisting with it?
    Ms. Kinter. We really don't know. That is a very good 
question. We were very surprised to learn that our recycling 
products that our members are sending out the door for 
legitimate recycling are now considered chemical feedstock for 
new chemicals. And so we are not really quite sure what their 
rationale is behind the adoption of this interpretation of 
byproduct.
    Mr. Pitts. Ms. Neu, you testified that cutting EPA funding 
to do its work will hurt our businesses and our economy more 
generally is the quote. Do you believe it is government's job 
more broadly to create economic winners and losers?
    Ms. Neu. Well, I think by virtue of any action, we are 
creating winners and losers, and I fear that any significant 
cutbacks in EPA will result in very little or no enforcement, 
which is something that really is of great concern to us. That 
is what levels the playing field. It is not necessarily new 
rules, new regulations. It is sometimes just a matter of 
enforcing existing rules and regulations across the board.
    Mr. Pitts. Since your business model is based upon 
investment, does out-of-control spending by the Federal 
Government hurt your access to capital?
    Ms. Neu. Well, I am not sure that I am in a position to 
answer that question, but I must say that I think that access 
to capital is a serious concern today for many businesses. And 
so I would have to agree with you on that.
    Mr. Pitts. Thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman's time has expired. The chair 
now recognizes the gentleman from North Carolina, Mr. 
Butterfield, for 5 minutes.
    Mr. Butterfield. Thank you very much, Mr. Chairman, and 
thank all of the witnesses for your testimony today. Mr. 
Chairman, I have been looking forward to working with you. I 
have joined this committee voluntarily because I think we need 
a better conversation in this country about environmental 
policy. As we talk about deficit reduction and other great 
issues facing our country, we cannot lose sight on this 
important issue.
    To protect the environment, we must have rules. There is no 
question about that. We must have not unreasonable rules, but 
we must have what I call common sense rules. History has 
clearly demonstrated that the American economy has thrived, has 
actually thrived under common sense rules that protect our 
environment.
    Since the establishment of the Clean Air Act in 1970, GDP 
has grown by more than 200 percent. If anything, the major 
economic stumbles have been caused by unsustainable bubbles 
created by unchecked bad players and a lack of clear and 
enforceable boundaries, not by common sense rules that seek to 
preserve our air, water, and quality of life.
    And so I support the president's environmental goals, and I 
support the Environmental Protection Agency. And I look forward 
to a good robust debate as we continue this process.
    Let me address in the time that I have remaining very 
briefly to Mr. Baird. Mr. Baird, I am told by my staff that 
according to EPA, the hard rock mining industry has 
contaminated 3,400 miles of streams and 440,000 acres of land. 
Does that seem to be a true statement?
    Mr. Baird. I honestly have no idea what those numbers are 
based on.
    Mr. Butterfield. Well, the EPA, and I am depending on this 
data, it says that 3,400 miles of streams and 440,000 acres of 
land have been contaminated. Would you agree that contamination 
from hard rock mining should be prevented, or if it----
    Mr. Baird. Yes, sir.
    Mr. Butterfield [continuing]. Occurs, it needs to be 
cleaned up?
    Mr. Baird. Yes, sir, absolutely, but most of what they are 
talking about there are historic practices that have not been 
used in many, many years.
    Mr. Butterfield. I am also told that the Federal Government 
has spent $2.5 billion over the last 10 years cleaning up 
abandoned hard rock mines. Would you agree or disagree?
    Mr. Baird. That is probably true. Again of historic 
operations using practices that are no longer used anymore and 
could not be done without permitting, without bonding, without 
all of the issues.
    Mr. Butterfield. Well, $2.5 billion is a lot of money. Do 
you think it is appropriate for the taxpayers to be on the hook 
to clean up contamination caused by mining?
    Mr. Baird. No, sir.
    Mr. Butterfield. So you think it should be the 
responsibility of the effected industry to do the cleanup?
    Mr. Baird. Of the PRP, of the people who caused it? Yes, 
sir, I do.
    Mr. Butterfield. All right, Mr. Chairman, I yield back.
    Mr. Shimkus. Gentleman yields back. The chair now 
recognizes the gentleman from New Hampshire, Mr. Bass, for 5 
minutes.
    Mr. Bass. Thank you, Mr. Chairman. I want to thank you and 
the ranking member for calling this very interesting panel, 
interesting in that we are not really being presented with 
conflicting stories here. There are solutions available to all 
three of the matters that are brought up by the three witnesses 
who testified as to problems that they have with respect to 
redundancy and regulation, overly burdensome regulation, and 
unnecessary regulation, I guess we would say in the case of the 
fly ash issue.
    And I would hope that the subcommittee could move forward 
with some sort of action with the EPA to correct all three of 
these issues, and there may be a dozen or so more that exist 
that we ought to be looking into.
    I also appreciate Mr. Ryan's testimony about the critical 
nature that EPA--critical role, rather, that EPA has played 
since its inception in the early '70s to protect human lives, 
the reduce the instances of environmentally caused illnesses, 
and to create, in many instances, a reasonable balance between 
unfettered industrial expansion and overregulation. But there 
are instances where it hasn't worked out, and we have seen 
three examples of that today.
    So although I do not have any specific questions for any of 
you, I believe that the testimony is pretty clear that we don't 
need to double regulate hard rock mining on federal lands, that 
fly ash from coal plants is an important recyclable commodity, 
that there ought to be some reasonable review of recycling of 
materials that have already been properly qualified as 
certified, that we need some sort of a debate over a federal 
standard for e-waste, and that an area where there is a heavy 
industrial development, that there needs to be very careful 
monitoring.
    And I guess I would suggest that this has been informative 
and interesting, but it needs to be followed up by some action 
on the part of this subcommittee to correct these problems that 
can be agreed to in a bipartisan manner, and we can get that 
legislation moving. And I want to commend the chairman again 
for having this subcommittee meeting because we should have 
another one next week or two weeks from now, bring in three 
more people that are having issues. And that is how we correct 
these problems before they are uncorrectable.
    So with that, I will yield back to the chair.
    Mr. Shimkus. The gentleman yields back his time, and just 
in response, I think the gentleman from New Hampshire raises a 
great issue. Again the intent of today's hearing was to address 
problems, and really if you are just having a hearing to 
identify good and bad on both sides, and then ways that you can 
address, in essence, duplication or maybe things that are 
designed or stated as hazardous that aren't hazardous and 
trying to get clarification.
    I would encourage my colleagues on both sides of the aisle 
as they go throughout their districts and meet with 
constituencies to raise concerns, and we could very well 
continue on this as we try to craft legislation to address 
these concerns.
    I would now like to recognize----
    Mr. Green. If you would just yield.
    Mr. Shimkus. I yield.
    Mr. Green. And I agree. In fact, that is what we were 
talking here. Maybe our committee on these three cases, and 
frankly we do this kind of work in our offices all the time 
with our constituents. But I think it would be much better if 
it showed--sitting down with EPA and the various agencies, 
saying the Federal Government ought to speak with one voice, 
and don't give us two hoops to jump through when you can do 
one, particularly when we need the power, we need the cobalt. 
And obviously we believe in freedom of speech, we need printed 
material.
    But I think that can then--I am really--the chairman and I 
will work with the members on both sides to see if we can do 
some problem solving.
    Mr. Shimkus. And now I would like to yield to Mr. Harper 
from Mississippi for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman, and I appreciate 
everyone taking time to be here and shed some light on what has 
become a very difficult issue for us, and that is the balance 
of regulation and how to do this in a way that it still allows 
business to do its job. And I can't think of an industry or 
business in my district that believes that they are under-
regulated, whether that is on the State or federal level.
    We have a clean coal plant that is being built in east 
Mississippi in my district that will sequester the carbon and 
use that for tertiary recovery in wells. And so, we have some 
things that are going on that I think are very important to 
look at it.
    And, Mr. Hopkins, I understand that in another life you 
were perhaps an environmental regulator at the State level. Is 
that correct?
    Mr. Hopkins. Yes, sir, that is correct. I was a field 
engineer for the Illinois EPA for 6 years, and I was the 
regional manager for the land division of Illinois, yes.
    Mr. Harper. Well, with your expertise in that and what you 
are doing now in your business, what is the solution to the 
coal ash? What do you do? And you are not saying for it to be 
unregulated. What is a common sense approach that will work?
    Mr. Hopkins. Well, sir, I think the congressman from North 
Carolina hit the nail on the head. What we need is reasonable 
regulations. We don't need to go overboard and cause products 
like coal ash to become a hazardous waste when they could be 
recycled beneficially.
    Mr. Harper. Ms. Kinter, I had a question. Why do you think 
that the EPA is reaching the conclusion that you are a chemical 
manufacturer subject to inventory update rule? How did they get 
there?
    Ms. Kinter. I think when they look at the fact that we 
recycle chemicals, and then when you look at what happens with 
the chemicals similar to what we have heard with the coal ash 
where they are actually manufactured into new products, and 
which is the beneficial reuse where you want to encourage your 
industry to actually, rather than dispose of it as a hazardous 
waste, to look for ways to reuse that product.
    Then they look at it as we are gaining a commercial benefit 
somehow from that, but in all my discussions with my members 
about, well, do you gain a commercial benefit from doing this? 
They say no, we have the pleasure of paying for them to take it 
off our hands, and it is made into whatever the recycling 
facility does with it. But we don't receive any monetary 
remuneration for recycling our chemicals. We actually pay 
someone else to take them offsite and to the recycling 
facility.
    Mr. Harper. So what should happen?
    Ms. Kinter. I think what should happen basically is that 
they, U.S. EPA, withdraws its interpretation that product 
manufacturers who happen to recycle are subject to the TASKA 
IUR update reporting. It is as simple as that. I believe the 
information is captured by TRI as well as a lot of the other 
state reporting mechanisms.
    Mr. Harper. You know I would be curious to know your 
members' experience with involved reporting requirements like 
those under Europe's chemical registration and management law 
known as Reach. Has the economic burden forced them to consider 
closing or relocating? And what impact has that really had?
    Ms. Kinter. That is an interesting question. I have started 
to look into that, and I can provide you more information once 
I have a fuller picture. But what we are seeing is that those 
chemical manufacturers over in Europe that are supplying what 
we could consider a specialty chemical are, in fact, having to 
cease production because of the costs associated with the Reach 
registration. It is a very interesting dilemma over there.
    But I would be happy to provide you with more details as 
they become clearer to me.
    Mr. Harper. Thank you, Ms. Kinter. Question that I have on 
the hard rock mines because we get a lot of rare materials that 
are needed for many items from that. Is there a concern or risk 
that we are not going to have access to those in the future?
    Mr. Baird. That is absolutely true. I forget who on the 
Committee brought up the rare earths is a critical matter 
followed only then by super alloy cobalt in terms of making 
sure that we have enough, and it is not in such limited supply 
that the price ends up being cost prohibitive for use in all 
the manufacturing products that we need.
    Mr. Harper. Yield back.
    Mr. Shimkus. The gentleman yields back his time. Before I 
adjourn this hearing, I was struck by an article in ``The Wall 
Street Journal'' today. I have been following this recycled 
cooking oil from places like McDonald's that has been used. 
People use it and they drive cars with it. And they clean it 
up.
    Well, the story at the end of the article, here is a guy 
quoting ``if I go to Costco, I can buy a pallet of vegetable 
oil'' note to Mr. Sobovaro, one of Colorado greaser on the 
legal fight ``explain to me why that it is considered a 
hazardous material if it is touches a chicken wing.''
    So, that is really the issue. Here you have a guy who is 
taking recycled oil to drive a vehicle, and it is just oil, it 
is just cooking oil. And if bought the same amount of oil at 
bulk, it is not a hazardous material, but if he takes it from a 
restaurant, and if he is using it from a restaurant, then it is 
not going into a landfill. I think that is part of the issue of 
jobs, common sense, and bringing back some semblance of, again, 
common sense, which maybe we will move on legislation based 
upon a lot of the hearing here.
    We appreciate your time and your effort, thank you for 
that. And I will say the hearing is adjourned.
    [Whereupon, at 4:26 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T5773.132
    
    [GRAPHIC] [TIFF OMITTED] T5773.133
    
    [GRAPHIC] [TIFF OMITTED] T5773.134
    
    [GRAPHIC] [TIFF OMITTED] T5773.135
    
    [GRAPHIC] [TIFF OMITTED] T5773.136
    
    [GRAPHIC] [TIFF OMITTED] T5773.137
    
    [GRAPHIC] [TIFF OMITTED] T5773.138
    
    [GRAPHIC] [TIFF OMITTED] T5773.139
    
    [GRAPHIC] [TIFF OMITTED] T5773.140
    
    [GRAPHIC] [TIFF OMITTED] T5773.141
    
    [GRAPHIC] [TIFF OMITTED] T5773.149
    
    [GRAPHIC] [TIFF OMITTED] T5773.150
    
    [GRAPHIC] [TIFF OMITTED] T5773.151
    
    [GRAPHIC] [TIFF OMITTED] T5773.152
    
    [GRAPHIC] [TIFF OMITTED] T5773.153
    
    [GRAPHIC] [TIFF OMITTED] T5773.154
    
    [GRAPHIC] [TIFF OMITTED] T5773.155
    
    [GRAPHIC] [TIFF OMITTED] T5773.142
    
    [GRAPHIC] [TIFF OMITTED] T5773.143
    
    [GRAPHIC] [TIFF OMITTED] T5773.144
    
    [GRAPHIC] [TIFF OMITTED] T5773.145
    
    [GRAPHIC] [TIFF OMITTED] T5773.146
    
    [GRAPHIC] [TIFF OMITTED] T5773.147
    
    [GRAPHIC] [TIFF OMITTED] T5773.148
    

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
